U.S.   D   E PA R T M E N T   O F   S   TAT E   A N D   T H E   B   R O A D C A S T I N G   B   O A R D   O F   G   O V E R N O R S




                                                                               Office of
                                                                              Inspector
                                                                               General




                                                   Program Performance Report
                                                                                      Fiscal Year 2003
25th Anniversary of the Inspector General Act


Nearly 25 years ago, Congress sought to increase oversight of federal programs and operations, and to create a        OFFICE OF INSPECTOR GENERAL
mechanism to report independently the results of these oversight reviews, with the passage of the Inspector General
Act of 1978. The Act established Inspectors General to keep agency heads and Congress informed about program                                            f o r
or operational deficiencies and gave them the authority and responsibility to be independent forces for
effectiveness, efficiency, and economy within the federal government. On August 27, 1986, the U.S. Department of        The United States Department of State
State’s Office of Inspector General (OIG) was established under amendments to the Inspector General Act.
                                                                                                                                                        and
The State Department has a long history of mandated inspections and oversight to ensure program integrity. The
1906 Act to Reorganize the Consular Service of the United States required reviews of consular offices abroad to
                                                                                                                        The Broadcasting Board of Governors
ensure the accurate accounting of consular fees and proper performance of their duties. In 1924, the Rogers Act
expanded the inspection universe to include diplomatic as well as consular posts. This requirement was further
expanded under the Foreign Service Act of 1946, which required Foreign Service inspectors to “inspect in a
substantially uniform manner and at least once every two years the work of the diplomatic and consular
establishments of the United States.” The inspection cycle was extended to five years under the Foreign Service Act
                                                                                                                               V I S I O N               &       M I S S I O N
of 1980, which also established the Inspector General of the Department of State and the Foreign Service. To ensure
that this function was carried out in an independent and objective manner, the Omnibus Diplomatic Security and
Antiterrorism Act of 1986 required the establishment of an independent OIG at the Department by October 1, 1986,
and increased the responsibilities of the office to include audits and investigations. The new State Department
                                                                                                                                                      VISION
Inspector General was designated to serve concurrently as the Inspector General of the Arms Control and
Disarmament Agency (ACDA).                                                                                                To support the Department of State and the Broadcasting Board of
                                                                                                                          Governors in achieving their missions as effectively, efficiently, and
Passage of the Omnibus Appropriation Act of 1996 (PL 104-28) merged the Office of Inspector General of the U.S.           economically as possible.
Information Agency (USIA), including the Broadcasting Board of Governors (BBG), with that of the Department and
ACDA, effective April 26, 1996. The Foreign Affairs Reform and Restructuring Act of 1998 integrated ACDA into the                                     MISSION
Department on April 1, 1999, and USIA into the Department on October 1, 1999, completing the consolidation
begun under the Office of Inspector General merger.
                                                                                                                          The mission of the Office of Inspector General is to serve as an
                                                                                                                          independent, objective reviewer and evaluator of the operations and
OIG Strategic and Performance Goals                                                                                       activities of the Department of State and the Broadcasting Board of
                                                                                                                          Governors. We analyze those operations and activities with a view
The Government Performance and Results Act of 1993 (Results Act) requires agencies to submit annual                       toward promoting effectiveness, efficiency, and economy. We seek out
performance reports detailing their success in achieving the goals and measures in their annual performance plans.
                                                                                                                          instances of fraud, waste, abuse, and mismanagement, and we work
As the independent oversight body for the Department of State, as well as the Broadcasting Board of Governors,
                                                                                                                          to prevent them. We report to the Secretary of State, the Broadcasting
the Office of Inspector General has chosen to develop its own vision, mission, and strategic and performance goals
                                                                                                                          Board of Governors, and the Congress, keeping them fully and
and to submit individual performance plans and reports along with those of the Department.
                                                                                                                          currently informed of significant developments and serious concerns.




                                                                                                                                                                                                   1
    Office of Inspector General                                                                        U.S. Department of State and the Broadcasting Board of Governors




                                   TABLE             OF       CONTENTS
                                                                                                                MESSAGE FROM THE DEPUTY INSPECTOR GENERAL


                                                                                                                                        am pleased to present the FY 2003 Performance Report for the Office of Inspector



                                                                                                                                 I
    VISION AND MISSION                                                                          1
                                                                                                                                        General (OIG) of the Department of State and the Broadcasting Board of Governors
    MESSAGE FROM THE DEPUTY INSPECTOR GENERAL                                                   3                                       (BBG). This represents the fifth annual performance report issued by the OIG and
                                                                                                                                        describes our accomplishments and success in achieving the performance results
    MANAGEMENT’S DISCUSSION AND ANALYSIS                                                        5                                targeted in our FY 2003 Performance Plan.

          OIG Responsibilities and Organization                                                 6                                In accordance with our statutory independence, we have developed our own strategic and
          Our People                                                                            7                                performance plans and goals, rather than adopt those of either the Department or the BBG.
          How We Assess our Performance                                                         8                                However, because we believe that our success is ultimately reflected in the agencies’ success in
          Strategic Planning Framework                                                          9                                achieving their respective missions and goals, our goals are expressed in terms of outcomes that
          Performance Reporting Improvements                                                   11   support their efforts to carry out their programs and operations efficiently, effectively, and economically, with integrity
          Most Important Results and Continuing Challenges                                     12   and accountability.
          Our Performance Rating System                                                        15
          Summary of FY 2003 Performance Results                                               16   FY 2003 was a successful year in terms of both the influence of OIG’s work on Department and BBG programs and operations
                                                                                                    and our overall progress over prior years’ results in realizing our strategic and performance goals. The responsiveness of the
    PERFORMANCE SECTION                                                                        21   Department to OIG's work and recommendations has resulted in some notable accomplishments during the past year.

          Strategic Goal #1: Foreign Policy                                                    25            Passport application requirements have been revised to make it necessary for children under 14 to appear in person
          Strategic Goal #2: Security                                                          31            when applying for a passport, closing a loophole that facilitated the smuggling of children.
          Strategic Goal #3: Financial Management and Administrative Support                   39
                                                                                                             Embassy designs have been changed to correct a security vulnerability identified by OIG that could have
          Strategic Goal #4: Accountability                                                    46
                                                                                                             compromised the safety of U.S. employees and information overseas.
          Internal Enabling Goal: OIG Management Excellence                                    51
                                                                                                             OIG audits and investigations resulted in nearly $13 million in potential monetary benefits, and the Department
    APPENDICES                                                                                 57            took action to recover and make better use of more than $14 million in questioned costs and funds whose better
                                                                                                             use was previously identified by OIG.
          Appendix A: Accomplishments in Support of OIG Strategic Goals                        58
                                                                                                             The BBG closed the Tokyo news bureau of Radio Free Asia as a cost-saving measure that allowed limited resources
          Appendix B: FY 2003 Reports Issued in Support of OIG Strategic Goals                 63
                                                                                                             to be used more effectively elsewhere.
          Appendix C: FY 2003 Reports Issued in Support of the President’s Management Agenda   65
          Appendix D: List of Abbreviations                                                    66            Actions taken by the Department and BBG in response to other OIG recommendations have resulted in
                                                                                                             improvements to programs and operations affecting munitions exports, protection of classified information,
                                                                                                             financial information and systems, use of government travel cards, and the Office of Cuba Broadcasting.


                                                                                                    We have also showed improvement in our results for many of the measures we use to assess our own performance, especially
                                                                                                    those related to the security of Department and BBG personnel, information, and facilities. We recognize, however, that
                                                                                                    regardless of what we have accomplished and the progress that we have made, we must continually strive to improve the
                                                                                                    relevance and impact of our work to meet the expectations of the President, the Congress, our agencies, and the American
                                                                                                    people. OIG is committed to meeting and exceeding those expectations in FY 2004 and beyond.



                                                                                                                                                                                      Anne W. Patterson
                                                                                                                                                                                      Deputy Inspector General

2                                                                                                                                                                                                                                    3
    Office of Inspector General




                                  Management’s
                                     Discussion
                                   and Analysis




                                  FISCAL YEAR 2003 PROGRAM PERFORMANCE REPORT




4
    Office of Inspector General                                                                                                                 U.S. Department of State and the Broadcasting Board of Governors




         OIG         RESPONSIBILITIES                                         AND           ORGANIZATION                                                                                              OUR PEOPLE


     Responsibilities                                                                                                                        Composition and Number


     The Office of Inspector General is required by law to provide independent and objective oversight of the operations and                 OIG’s workforce consists of approximately 225 employees in the Civil Service and Foreign Service. The pie chart below
     activities of the Department and the Broadcasting Board of Governors. It is OIG’s responsibility to examine, evaluate, and              shows the distribution of our workforce between these two categories. Our full-time, permanent staff is supplemented by
     where necessary, critique these operations and activities, recommending ways for these agencies to carry out their                      retired Foreign Service annuitants and external contractors, as necessary.
     respective responsibilities in the most effective, efficient, and economical manner possible. OIG’s oversight consists primarily
     of audits of programs, operations, and activities; inspections of missions, bureaus, and international broadcasting
                                                                                                                                                                                                 Workforce Composition
     installations; and investigations of allegations and instances of fraud, waste, abuse, and mismanagement.                                                                                   Full-time Permanent Employees



                                                                                                                                                                                                                                   Foreign
     Organizational Structure                                                                                                                                                                                                    Service (22)
                                                                                                                                                                                                                                    10%

     All OIG operations are located in the Washington, D.C., area, although OIG staff conduct their work at all Department and
     BBG locations worldwide. As shown in the organizational chart below, OIG’s mission is carried out by six functional offices
     (Audits, Information Technology, Inspections, Security and Intelligence Oversight, Investigations, and International                                                       Civil Service
                                                                                                                                                                                    (203)
     Broadcasting Oversight) and four support offices (Counsel; Administration; Congressional, Public Affairs, and Outreach; and                                                     90%
     Planning, Analysis, and Results), each headed by an Assistant Inspector General.


                                                         U.S. Department of State and
                                                       Broadcasting Board of Governors                                                       Since FY 1996, the total number of OIG employees has decreased by almost 10 percent, while the Department has increased
                                                                                                                                             the number of its employees by 25 percent, expanding considerably OIG’s oversight responsibility.
                                                OFFICE OF INSPECTOR GENERAL


                                                               Inspector General                                                                              St a f f on H a nd at e nd of Fi s ca l Ye a r f o r Fi s ca l Yea r s 1 99 6 - 2 0 0 3
                      Counsel
                                                                    (Vacant)
                                                                                                                                                                260
                                                            Deputy Inspector General
                                                                                                                                                                250

                                                                                                                                                                240

                                                                                                                                                                230

                                                                                                                                                                220

                                                                                                                                                                210

                        Office of Audits
                                                         Office of                  Office of             Office of Security and                                200
                                                       Inspections               Investigations           Intelligence Oversight
                                                                                                                                                        FISCAL YEAR     FY 1996        FY 1997       FY 1998    FY 1999   FY 2000        FY 2001   FY 2002   FY 2003

                                                                                                                                                      STAFF ON HAND       248            244           242       256        218            223      218       225
     Office of International        Office of Information              Office of             Office of Planning,              Office of
     Broadcasting Oversight              Technology             Congressional, Public       Analysis, and Results           Administration
                                                                Affairs, and Outreach




6                                                                                                                                                                                                                                                                      7
    Office of Inspector General                                                                                                                       U.S. Department of State and the Broadcasting Board of Governors




                                HOW WE ASSESS OUR PERFORMANCE                                                                                                                          S T R AT E G I C P L A N N I N G F R A M E W O R K
                                O U R P E R F O R M A N C E M A N AG E M E N T T E M P L AT E



     Five-Tiered Methodology                                                                                                                       Strategic and Performance Goals


     Like the Department, OIG is committed to, and focused on, using the funds it receives from Congress—the tax dollars of                        Within the parameters of the performance management methodology shown on the previous page, OIG focuses its work
     American citizens—to produce successful results. To do so, the OIG has adopted a five-tiered performance management                           around four strategic and eight performance goals that capture both the breadth of its mission and its specific
     methodology, similar to that of the Department, but without the Department’s strategic objectives (all of OIG’s strategic                     responsibilities.
     goals, for the most part, support the Department’s strategic objective to “Strengthen Diplomatic and Program
     Capabilities”). Because all our indicators focus on quantifiable results, we also report major accomplishments, noting
                                                                                                                                                                                                                      Mission
     specific activities and results not captured by our indicators that contribute to the achievement of our strategic goals. The
                                                                                                                                                        The Mission of the Office of Inspector General is to serve as an independent, objective reviewer and evaluator of the
     component tiers of our performance management methodology are defined below.                                                                       operations and activities of the Department of State and the Broadcasting Board of Governors. We analyze those
                                                                                                                                                        operations and activities with a view toward promoting effectiveness, efficiency, and economy. We seek out instances
                                                                                                                                                        of fraud, waste, abuse, and mismanagement, and we work to prevent them. We report to the Secretary of State, the
                                                                                                                                                        BBG, and the Congress, keeping them fully and currently informed of significant developments and serious concerns.
                             OIG PERFORMANCE MANAGEMENT METHODOLOGY
                        Strategic Goals            OIG’s four long-term goals, as detailed in its Strategic Plan.

                                                   The desired annual results OIG expects to achieve, which are necessary for attaining the            The Department and the BBG        The Department and the             The Department and the BBG        The Department and the BBG
                       Performance Goals           strategic goals. OIG has eight performance goals and two internal enabling goals.                   effectively, efficiently, and     BBG adequately protect the         have the necessary financial      ensure accountability
                                                                                                                                                       economically advance the          people, information, and           and support systems and           and prevent or eliminate
                                                                                                                                                       foreign policy interests of       facilities under their control     controls to meet legal and        fraud, waste, abuse, and
                                                   Specific functional areas and/or activities, such as audits, inspections, and investigations,       the United States.                in the United States and           operational requirements.         mismanagement in programs
                      Activities/Programs          to which OIG’s resources are devoted to achieve the desired strategic and performance                                                 abroad.                                                              and operations.
                                                   goal results.

                                                   Values and characteristics that OIG uses to measure progress achieved toward its stated
                     Performance Indicators
                                                   annual performance goals.                                                                           Identify opportunities for        Assess the adequacy of             Identify challenges and           Identify a minimum of
                                                                                                                                                       improving the management          Department and BBG                 vulnerabilities, with             $7.8 million in potential
                      Performance Targets          Quantifiable expressions of desired performance levels and results for a given fiscal year.         and operations of overseas        security for their personnel,      recommendations to address        monetary benefits as a result
                                                                                                                                                       missions, domestic bureaus,       property, and information at       them, for at least 21             of audit and investigative
                                                                                                                                                       and international                 overseas missions and              Department financial and          recommendations.
                                                                                                                                                       broadcasting activities           domestic locations, and            administrative support
                                                                                                                                                       through post management           ensure that, as appropriate,       programs and activities.
                                                                                                                                                       and thematic inspections,         necessary corrective actions
                                                                                                                                                       audits, and program               are implemented.
                                                                                                                                                       evaluations.
                                                                                                                                                                                                                                                              Promote awareness and
                                                                                                                                                                                                                            Evaluate Department and           adherence to standards of
                                                                                                                                                                                                                            BBG progress in measuring         professional and ethical
                                                                                                                                                                                                                            performance or implementing       conduct and accountability;
                                                                                                                                                                                                                            the President’s Management        where necessary, conduct
                                                                                                                                                       Evaluate at least nine U.S.       Identify vulnerabilities and       Agenda (PMA), and                 thorough and expeditious
                                                                                                                                                       government operations and         recommend corrective actions       recommend improvements,           investigations of fraud, waste,
                                                                                                                                                       programs with foreign policy      with respect to information        as appropriate.                   abuse, and mismanagement.
                                                                                                                                                       implications, and recommend       systems and security at no
                                                                                                                                                       actions necessary to remove       fewer than 15 overseas
                                                                                                                                                       or overcome them.                 missions.
                                                                                                                                                                                                                            LEGEND          Strategic Goals            Performance Goals




                                                                                                                                                   OIG’s four Strategic Goals are shown on the next page, together with their corresponding eight Performance Goals and
                                                                                                                                                   19 Performance Indicators.




8                                                                                                                                                                                                                                                                                               9
     Office of Inspector General                                                                                                            U.S. Department of State and the Broadcasting Board of Governors




                                                     STRATEGIC GOAL #1                                                                                            PERFORMANCE REPORTING IMPROVEMENTS
                                                      - Foreign Policy -
          Perfo rmance Go al Descript io n                                   Perfo rmance I nd icat o rs

       Improving the management and operations of overseas          Percentage of recommendations resolved within 6 months                Improvements Implemented during FY 2003
       missions, domestic bureaus, and international broadcasting   Percentage of recommendations closed within 1 year
       activities                                                   Percentage of significant recommendations closed within 1 year
                                                                    Percentage of posts inspected within last 5 years                     Because OIG’s FY 2003 Performance Report is presented in conjunction with the Department’s Performance and
       Evaluating U. S. government operations and programs          Reports issued                                                        Accountability Report, and to better demonstrate the alignment of our results with the mission of the Department, OIG has
       with foreign policy implications; identifying obstacles,
       and recommending actions necessary to remove or
                                                                                                                                          tried, to the extent possible, to mirror the presentation and format used by the Department. In doing so, OIG has adopted
       overcome them                                                                                                                      many of the major improvements made by the Department to enhance the usefulness of the report to its leadership and
                                                                                                                                          external stakeholders, as described below.
                                                     STRATEGIC GOAL #2
                                                        - Security -                                                                      1) Results Presented in Concise Strategic Goal Chapters: OIG has adopted the format used by the Department to present
          Perfo rmance Go al Descript io n                                   Perfo rmance I nd icat o rs                                  the analysis of its FY 2003 performance in strategic goal chapters that provide a context for the results and link them to public
       Assessing the adequacy of Department and BBG security        Reports issued
                                                                                                                                          benefits and resource investments.
       for their personnel, property, and information at overseas   Percentage of recommendations resolved within 6 months
       missions and domestic locations and ensuring that, as        Percentage of recommendations closed within 1 year
       appropriate, necessary corrective actions are                Percentage of significant recommendations closed within 1 year
       implemented                                                  Percentage of missions receiving security inspections within last                       Sub Section                                                   Purpose
                                                                    5 years
                                                                                                                                                                                         A concise narrative of how the goal and its results contribute to improving the
                                                                                                                                                               Public Benefit
       Identifying vulnerabilities and recommending corrective      Missions receiving information security inspections                                                                  Department and benefit the American taxpayer.
       actions with respect to information systems and security
       at overseas missions                                                                                                                                                              An easy-to-read table that depicts the various programs, lead offices, and external
                                                                                                                                                             Strategic Context
                                                                                                                                                                                         partners that contribute to accomplishment of a given goal.

                                   STRATEGIC GOAL #3                                                                                                                                     A graphic summary of the results achieved for each strategic goal, showing FY
                  - Financial Management and Administrative Support -                                                                                      Performance Summary
                                                                                                                                                                                         2002 and FY 2003 results side-by-side.
          Perfo rmance Go al Descript io n                                   Perfo rmance I nd icat o rs                                                                                 A summary of resources (dollars and people) devoted to pursuit of the goal,
                                                                                                                                                            Resources Invested
                                                                                                                                                                                         including a comparison of resources invested for FY 2002 and FY 2003.
       Identifying challenges and vulnerabilities, with             Reports issued
       recommendations to address them, for financial and           Percentage of recommendations resolved within 6 months                                                               A summary of performance results since FY 2000, together with the performance
       administrative support programs and activities               Percentage of recommendations closed within 1 year                                      Performance Results
                                                                                                                                                                                         rating and a short impact statement pertaining to the FY 2003 result achieved.
                                                                    Percentage of significant recommendations closed within 1 year

       Evaluating Department and BBG progress in measuring          Reports issued
       performance or implementing the President’s Management
       Agenda, and recommending improvements, as appropriate                                                                              2) Activities and Programs (A/Ps): This year, to provide greater clarity as to how specific indicators and performance targets
                                                                                                                                          relate to given policies or functions, the Department has defined the work or activities towards these goals in terms of
                                                     STRATEGIC GOAL #4                                                                    specific, coherent functional and/or policy areas called Initiatives/Programs. This new element in the Department’s strategic
                                                      - Accountability -
                                                                                                                                          planning framework has provided a clearer basis for linking the results of OIG’s work to Department goals, since OIG’s work
           Perfo rmance Go al Descript io n                                  Perfo rmance I nd icat o rs                                  is directed at reviewing and evaluating this level of the Department’s operations. For its own report, OIG has adopted a related
       Identifying potential monetary benefits as a result of       Monetary value of cost savings, efficiencies, recoveries, and fines
                                                                                                                                          element, Activities and Programs, to identify the offices and operations that contribute to achieving each of our goals.
       audit and investigative recommendations

       Promoting awareness and adherence to standards of            Percentage of employee cases open within targeted ranges of
       professional and ethical conduct and accountability; where   days for cases open at end of fiscal year
       necessary, conducting thorough and expeditious               Percentage of employee cases closed within targeted ranges of
       investigations of fraud, waste, abuse, and mismanagement     days for cases closed during fiscal year




10                                                                                                                                                                                                                                                                             11
     Office of Inspector General                                                                                                        U.S. Department of State and the Broadcasting Board of Governors




     3) Improved Performance Indicators and Targets: Recommendations resolved and implemented are the major outcome
     indicators used by OIG in measuring results on three of its four strategic goals. Recognizing, however, that all                                 M O S T I M P O R TA N T R E S U LT S A N D C O N T I N U I N G C H A L L E N G E S
     recommendations are not of equal importance in achieving our goals, we have added an indicator that focuses on closing our                                        Results                                                                Continuing Challenges
     most significant recommendations related to each of these strategic goals. In addition, under Strategic Goals 1 and 2, we have                                                                  FOREIGN POLICY
     eliminated the percentage of posts inspected as a separate goal. Instead, we have added it as an additional indicator under                  The Department developed a phased-in plan to increase the number of end-use checks             Current resources are inadequate to
     the first performance goal for each strategic goal, where it more properly belongs.                                                          of munitions exports and will specify in cables to posts when a site visit is required as      carry out the 5-year inspection
                                                                                                                                                  part of an end-use check.                                                                      schedule requested by senior
                                                                                                                                                                                                                                                 management to ensure effective
     4) Performance Rating System: OIG has adopted the rating criteria developed and implemented by the Department last                           The Department is revising passport regulations and application forms to require               oversight of post and bureau
                                                                                                                                                  children under 14 to appear personally when passport applications are executed on              operations.
     year to assist program managers with evaluating performance results compared to targets. In addition to providing clear                      their behalf.
                                                                                                                                                                                                                                                 There is a need to balance effectively
     criteria for rating performance on each goal, the rating system provides a common lexicon with the Department to describe                    The Department has begun an extensive analysis of consular workloads worldwide                 the scope, frequency, and size of post
     our success in achieving our goals and desired outcomes.                                                                                     to assess consular resource needs in the post-September 11, 2001, era.                         management inspections to ensure
                                                                                                                                                                                                                                                 adequate oversight of missions and
                                                                                                                                                  BBG took action to close the Tokyo news bureau of Radio Free Asia, allowing it to              bureaus within limited resources.
     5) Results Appendix: The overview and strategic goal chapters have been supplemented by an appendix showing the reports                      put limited resources to better use.
                                                                                                                                                                                                                                                 There is a need to identify and attract
     that were issued by OIG during FY 2003 in support of each of its strategic goals, as well as work that addresses the initiatives             The Office of Cuba Broadcasting (OCB) conducted a needs assessment of talent                   personnel with needed specialty skills
                                                                                                                                                  contractors and cancelled or reduced many of the contracts, allowing OCB to direct             (political/economic, public diplomacy,
     of the President’s Management Agenda (PMA).                                                                                                  these contract dollars to other purposes, and established a quality assurance plan             executive management) to ensure
                                                                                                                                                  for future procurement actions.                                                                effective oversight of the full range
                                                                                                                                                                                                                                                 of post and bureau operations.

     Improvements Planned for FY 2004
                                                                                                                                                                                                            SECURITY
     OIG will continue to work with the Department and the BBG to make our work more relevant and useful and to define better                     Responsibility for protecting sensitive compartmented information (SCI) has been               Security vulnerabilities persist, even
     our goals and results in terms of their impact on the Department and the BBG. Further improvements to OIG’s performance                      transferred from the Bureau of Intelligence and Research to the Bureau of Diplomatic          when recommended security
     reporting will be made, to the extent necessary and appropriate, to address changes made by the Department and the BBG.                      Security. The Department has implemented procedures to control SCI documents and              enhancements are promptly
                                                                                                                                                  ensure that vulnerabilities identified by technical surveillance countermeasure               implemented, because of continual
                                                                                                                                                  evaluations are corrected promptly. The Department has also strengthened internal             changes in worldwide threat
                                                                                                                                                  procedures for adjudicating security violations and referring valid violations for            conditions.
     OIG has been without a congressionally confirmed Inspector General since January 2003, when the previous Inspector General                   possible disciplinary action.
     moved to the new Department of Homeland Security. Anticipating that this vacancy may be addressed during FY 2004, OIG                                                                                                                      There is a need to focus limited
                                                                                                                                                  The Department clarified guidance on actions needed to protect Top Secret documents           resources on security inspections of
     expects to reevaluate and revise its strategic and performance plans, goals, and measures, as appropriate, once a new                        stored on electronic media and for labeling and storing certain classified electronic         critical and high threat posts, creating
     Inspector General is nominated and confirmed.                                                                                                media.                                                                                        the potential for increasing
                                                                                                                                                                                                                                                vulnerability of posts with lower
                                                                                                                                                  The Department is altering the design and construction of compound access control             threat levels.
                                                                                                                                                  facilities to eliminate an OIG-identified vulnerability.

                                                                                                                                                  The Department has developed oversight guidance, briefed senior office managers,
             M O S T I M P O R TA N T R E S U LT S A N D C O N T I N U I N G C H A L L E N G E S                                                  and designed program implementation tools to assist the Department’s Unit Security
                                                                                                                                                  Officers (USO) in implementing the Department’s security program. Training sessions
                                                                                                                                                  have been developed for USOs and Principal Unit Security Officers (PUSO), and as
                                                                                                                                                  of October 2003, 29 PUSOs and 713 USOs had completed this training.
     During FY 2003, actions taken by the Department and the BBG in response to OIG findings and recommendations resulted,                                F I N A N C I A L M A N A G E M E N T A N D A D M I N I S T R AT I V E S U P P O R T
     inter alia, in changes that improved oversight of munitions exports and international broadcasting operations, reduced
                                                                                                                                                   The Department developed written policies and procedures for bureau travel                   Continuing growth in legislative
     vulnerabilities to terrorism and other security threats, and improved internal controls and the accuracy and reliability of
                                                                                                                                                   card program coordinators and cardholders, and has made them centrally                       mandates and other unanticipated
     financial management and other information systems. OIG audit and investigative activities also improved accountability for                   available on an intranet site. It also developed guidelines for addressing                   requests seriously limits OIG’s ability
                                                                                                                                                   individually-billed travel card accounts that are in the 60-days past due category           to conduct planned, unmandated work.
     Department and BBG employees, contractors, and grantees; identified potential cost benefits; and reduced fraud and other                      and guidance on when and how to transfer cardholders’ accounts from one
     violations of law and regulation. Internally, we took actions to improve our strategic management of human resources and to                   bureau to another or to an overseas mission.

     identify the correct mix of qualified personnel to carry out our mission. Highlights of OIG’s most important results and                      The Department is significantly improving the accuracy, reliability, and availability
                                                                                                                                                   of its financial information and focusing efforts to address several significant
     continuing challenges are shown by strategic goal in the table that follows.
                                                                                                                                                   internal control and noncompliance issues, including systems security.




12                                                                                                                                                                                                                                                                                         13
     Office of Inspector General                                                                                                             U.S. Department of State and the Broadcasting Board of Governors




                                                                                                                                                                           O U R P E R F O R M A N C E R AT I N G S YS T E M
             M O S T I M P O R TA N T R E S U LT S A N D C O N T I N U I N G C H A L L E N G E S
                              Results                                                   Continuing Challenges
                                                            ACCOUNTABILITY

           OIG audits identified $5.3 million in questioned costs and $500,000 in        New mandates for OIG to audit more than
                                                                                                                                          As part of our efforts to demonstrate better the relationship of our results to the Department’s and provide a common frame
           funds that could be put to better use.                                       $700 million in 632(a) transfer grants will       of reference, OIG has adopted substantially the same rating system used by the Department to assess its FY 2003 performance
                                                                                        seriously limit OIG’s ability to conduct other
           Investigative recoveries totaled $7.3 million.                               important nonmandated contract and grant          results against established targets. As described in the Department’s Performance and Accountability Report, this results rating
                                                                                        audits.                                           methodology enables us to evaluate systematically progress toward the targets set in our FY 2003 Performance Report. Using
           The president of a company providing explosive ordnance detection dogs
           and handlers to the Department was sentenced to 78 months in prison           Resources restrictions increasingly limit        a consistent set of criteria, as shown below, one of five performance ratings is assigned, reflecting the extent to which a given
           and 36 months of supervised probation, and was fined $2,700 and ordered      OIG’s ability to carry out any but priority
           to make restitution of more than $708,000.                                   investigations.
                                                                                                                                          target was achieved. By using substantially the same criteria and rating system as the Department, we are able to establish a
                                                                                                                                          common basis for evaluating and communicating our success in meeting our goals.
           A Nigerian national was convicted of passport fraud, sentenced to a year
           and a day in prison, and deported from the United States.


                                                                                                                                              Performance          Significantly           Slightly Below                                       Above               Significantly
                                             INTERNAL ENABLING GOALS                                                                                                                                                   On Target
                                                                                                                                                 Rating            Below Target                Target                                           Target              Above Target

           OIG developed its first hiring plan for FYs 2003-04 and initiated work on     OIG must obtain and sustain the level of             Criteria                                                  P a r a m e t e r s
           its first workforce plan.                                                     funding necessary to hire needed personnel,
                                                                                         to provide required and adequate training,                             Missed FY 2003            Missed FY 2003 target   Met FY 2003 target      Slightly exceeded       Significantly exceeded
           OIG initiated a 100 percent review of all OIG position descriptions, to be    and to travel and carry out new initiatives         Target Status      target by a significant   by a slight margin                              FY 2003 target          FY 2003 target
           completed in 2004.                                                            in pursuit of OIG’s goals and desired results.                         margin

                                                                                         OIG must ensure timely issuance of OIG                                 Missed most critical      Missed a few critical   Met all critical        Met some critical       Met most critical
                                                                                                                                               Timeliness       deadlines                 deadlines               deadlines               deadlines early         deadlines early
                                                                                         reports and other products while meeting
                                                                                         changing priorities and requirements that
                                                                                         may supersede planned activities.                                      Significantly impairs     Slightly impairs        No change in            Slightly improves       Significantly improves
                                                                                                                                              Impact on         program’s ability to      program’s ability to    program’s ability to    program’s ability to    program’s ability to
                                                                                                                                                Future          achieve future years’     achieve future years’   achieve future years’   achieve future years’   achieve future years’
                                                                                                                                                                performance targets,      performance targets,    performance targets     performance targets,    performance targets,
                                                                                                                                              Operations        requiring major           requiring minimal                               requiring minimal       requiring major upward
                                                                                                                                                                downward revisions        downward revisions                              upward increases        increases to future
                                                                                                                                                                to future targets         to future targets                               to future targets       targets




14                                                                                                                                                                                                                                                                                         15
     Office of Inspector General                                                                                                          U.S. Department of State and the Broadcasting Board of Governors




                                                                                                                                        S U M M A RY O F F Y 2 0 0 2 A N D F Y 2 0 0 3 S T R AT E G I C G O A L R E S U LT S
                   S U M M A R Y O F F Y 2 0 0 3 P E R F O R M A N C E R E S U LT S

                                                                                                                                                          Percentage of Results With Ratings Equal to or Above “On Target” by Strategic Goal

                                                                                                                                                   100%
      S U M M A RY O F A L L R E S U LT S                                                                                                                                  83%
                                                                                                                                                                                                                                                FY 2003
                                                                                                                                                    80%                                                       67% 67%
                                                                                                                                                                                                                                                FY 2002
                                                                                                                                                    60%           50%
      The following pie chart shows the ratings distribution for all performance results reported in FY 2003. As shown below,
                                                                                                                                                            40%                  40%        40% 40%
                                                                                                                                                    40%                                                                              33%
      57 percent of the results were “on target” or above.                                                                                                                                                                     25%
                                                                                                                                                    20%

                                                                                                                                                      0
                                       Su m m a r y of F Y 2003 P er f orm a n ce Res u l ts                                                                SG#1            SG#2             SG#3                 SG#4           IG#1

                   Significantly
                   Above Target                                   Slightly
                                                                Above Target                Significantly Above Target      7                              Average Performance Ratings Comparison - FY 2002 to FY 2003 By Strategic Goal
                     (7) 30%
                                                                  (3) 13%                   Slightly Above Target           3

                                                                                            On Target                       2                             SIGNFICANTLY         SLIGHTLY                                    SLIGHTLY        SIGNFICANTLY
                                                                                                                                                                                                      ON TARGET
                                                                   On Target                                                                              BELOW TARGET       BELOW TARGET                                ABOVE TARGET      ABOVE TARGET
                                                                                            Slightly Below Target           2
                                                                    (2) 9%
                                                                                            Significantly Below Target      9
                   Significantly
                   Below Target                                                                                                                   SG#1
                                                                                            Total Number of Results        23
                     (9) 39%                                         Slightly
                                                                  Below Target
                                                                     (2) 9%

                                                                                                                                                  SG#2




                                                                                                                                                  SG#3
      RESOURCES SUPPORTING STRATEGIC GOALS

                                                                                                                                                  SG#4
                Bud ge t Dolla rs E x p en d ed i n                                          Sta f f Su p p or ti n g
              Sup p or t of Ea ch Stra teg i c Goa l                                       E a ch Stra teg i c Goa l
                                                                                                                                                                                                                                               FY 2003
                                                                                                                                                   IG#1
                                                                                                                                                                                                                                               FY 2002
                                                       26%                                                                      22%
             38%                                                                 28%




                                                                                                                                        Performance Data Quality and Limitations

             17%                                          19%                    30%                                              20%   The performance data in the FY 2003 report are the most complete and accurate data in any of the five performance reports
                                                                                                                                        issued under the Results Act and meet standards for reliability contained in Office of Management and Budget Circular
                   SG1: $11 Million         SG2: $7.5 Million                          SG1: 67                        SG2: 64           A-11. The data come from five basic sources within OIG, as described below.
                   SG3: $5.6 Million        SG4: $5.0 Million                          SG3: 49                        SG4: 45
                                                                                                                                                OIG Compliance Analysis Tracking System (CATS)—nine measures relating to recommendations;

                                                                                                                                                OIG reports—eight measures relating to missions reviewed, programs evaluated, reports issued, and potential
                                                                                                                                                monetary benefits;




16                                                                                                                                                                                                                                                                  17
     Office of Inspector General                                                                                                                                  U.S. Department of State and the Broadcasting Board of Governors




                  OIG Case Management System—two measures relating to investigative cases;
                                                                                                                                                                                                                                                Average Performance Rating and Number of Reported Results
                  OIG personnel records—two measures relating to staff on hand and the attrition rate; and                                                         Strategic Goal                  Performance Goal
                                                                                                                                                                                              (Total Number of Reported Results)               Significantly  Slightly                 Above    Significantly
                                                                                                                                                                                                                                               Below Target Below Target   On Target   Target   Above Target
                  Project Tracking System (PTS)—two measures relating to project length.
                                                                                                                                                                  The Department       Identify opportunities for improving the
                                                                                                                                                                  and the BBG          management and operations of overseas missions,
         OIG’s internal controls, verification, and validation efforts lead it to believe that the data from these sources is as accurate and                     effectively,         domestic bureaus, and international broadcasting
                                                                                                                                                                  efficiently, and     activities through post management and thematic
         reliable and as germane to OIG’s goals as can be reasonably expected. Almost all of these data are traditional indicators of OIG                         economically         inspections, audits, and program evaluations.
                                                                                                                                                                                                                                                   2            1                                       1

         results—recommendations resolved and closed, identified cost savings and funds put to better use, and reviews, assessments,                              advance the          (4 results)
                                                                                                                                                                  foreign policy
         and other efforts conducted vis-à-vis our agencies. Some of these tend to be surrogate or interim outcomes and outputs of our                            interests of the     Evaluate at least nine U.S. government operations
         work with an indirect correlation to the ultimate results encompassed in our goals. Qualitative results and accomplishments in                           United States        and programs with foreign policy implications and
                                                                                                                                                                                       recommend actions necessary to remove or                                                          1
         support of each strategic goal have been included to address, in part, this shortcoming in our indicators.                                                                    overcome them. (1 result)

                                                                                                                                                                  The Department       Assess the adequacy of Department and BBG
                                                                                                                                                                  and the BBG          security for their personnel, property, and
         C h a n g e s t o F Y 2 0 0 4 G o a l s, I n d i c a t o r s, a n d Ta r g e t s                                                                         adequately protect   information at overseas missions and domestic
                                                                                                                                                                                                                                                                              2          1             2
                                                                                                                                                                  the people,          locations, and ensure that, as appropriate, necessary
                                                                                                                                                                  information, and     corrective actions are implemented. (4 results)
         OIG’s strategic and performance goals, indicators, and targets for FY 2004 remain largely unchanged. However, as a result of                             facilities under
                                                                                                                                                                  their control in     Identify vulnerabilities and recommend corrective
         resource limitations that have made it unlikely that OIG will be able to perform post management inspections of all overseas                             the United States    actions with respect to information systems and
         posts and domestic bureaus at least once every five years, as previously planned, the two indicators relating to the percentage                          and abroad           security at no fewer than 15 overseas missions.            1
                                                                                                                                                                                       (1 result)
         of posts receiving post management and security inspections within a five-year period have been replaced by indicators of
         the number of posts receiving such inspections each year. In addition, a decision, taken at the end of FY 2003, to integrate                             The Department       Identify challenges and vulnerabilities, with
                                                                                                                                                                  and the BBG have     recommendations to address them, for at least 21
         OIG’s post management, security, and information inspections into a single process and to include the information technology                             the necessary        Department financial and administrative support            2             1              1
         issues in the post management and security inspection reports, rather than as a separate report, has resulted in eliminating                             financial and        programs and activities. (4 results)
                                                                                                                                                                  support systems
         the second security performance goal as a separate goal and indicator. Changes to some of OIG’s FY 2004 and subsequent-                                  and controls to      Evaluate Department and BBG progress in
         year targets have also been made, based on FY 2003 and trend results for the past five years.                                                            meet legal and       measuring performance or implementing the
                                                                                                                                                                  operational          President’s Management Agenda, and recommend                                                                    1
                                                                                                                                                                  requirements         improvements, as appropriate. (1 result)
         OIG expects to reevaluate and revise its strategic and performance plans, goals, and indicators, as appropriate, once a new
                                                                                                                                                                  The Department       Identify a minimum of $7.8 million in potential
         Inspector General is nominated and confirmed.                                                                                                            and the BBG ensure   monetary benefits as a result of audit and
                                                                                                                                                                  accountability and   investigative recommendations. (1 result)                                                                       1
                                                                                                                                                                  prevent or
                                                                                                                                                                  eliminate fraud,     Promote awareness and adherence to standards
         Summary Performance Goal Results                                                                                                                         waste, abuse, and    of professional and ethical conduct and
                                                                                                                                                                  mismanagement in     accountability; where necessary, conduct thorough
                                                                                                                                                                  programs and         and expeditious investigations of fraud, waste,            1                                                    1

         The table below provides performance results for each of OIG’s FY 2003 annual performance goals. The inverted black triangle                             operations           abuse, and mismanagement. (2 results)

         represents the average of all performance ratings assigned to results associated with the performance goal. The numbers                                  Internal Enabling    Attract and retain employees with the requisite
         below the rating scale show the number of indicators or results that met each rating level . For comparison purposes, the
                                                                                                                       1                                          Goals                professional skills and expertise in the areas of
                                                                                                                                                                                       foreign policy, financial auditing, information
         FY 2002 performance rating average is represented by the inverted gray triangle.                                                                                              technology, security, program evaluation,                                1                                      1
                                                                                                                                                                                       investigations, and other areas of need. (2 results)

                                                                                                                                                                                       Issue a final report or other product within six
                                                                                                                                                                                       months of starting a project. (2 results)                   2



     1
       The chart depicts data for “reported results” (i.e., targets for which data were available). In some instances, for a given annual performance goal, the
     number of reported results might be less than the number of targets because data was unavailable to produce a results rating.




18                                                                                                                                                                                                                                                                                                              19
     Office of Inspector General




                                     Performance
                                          Section




                                   FISCAL YEAR 2003 PROGRAM PERFORMANCE REPORT




20
     Office of Inspector General                                                                                                                                                  U.S. Department of State and the Broadcasting Board of Governors




         O I G S T R AT E G I C A N D P E R F O R M A N C E G O A L S A N D F Y 2 0 0 3 R E S U LT S
                                                                                                                                                                                     OIG       STRATEGIC                       AND          PERFORMANCE                             GOALS
                                                                                                                                                             FY in which
     Strategic Goal                         Performance Goals                                   Measure                   Target           Actual1            target will
                                                                                                                                                                be met

     The Department and           Identify opportunities for improving the               % of Recs. Resolved in 6            85%          72% (SB) ▲               FY 2005
                                                                                                                                                                                  C O M PA R I S O N O F F Y 2 0 0 2 A N D F Y 2 0 0 3 P E R F O R M A N C E G OA L R AT I N G S
     the BBG effectively,         management and operations of overseas                         Months
     efficiently, and             missions, domestic bureaus, and international         % of Recs. Closed in 1 Year          85%          78% (SB) ↔               FY 2005
     economically                 broadcasting activities through post
     advance the foreign          management and thematic inspections, audits,             % of Significant Recs.            50%          63% (SA) ❑
     policy interests of          and program evaluations.                                   Closed in 1 Year                                                                        FY 2003 Performance Rating By Performance Goal           FY 2002 Performance Rating By Performance Goal
     the United States.                                                                  % of Missions Inspected             79%          78% (B)     ▲      Indicator replaced
                                                                                           Within last 5 Years                                                 so target N/A
                                                                                                                                                                                                     IG1/PG2       SG1/PG1                                     IG1/PG2        SG1/PG1
                                  Evaluate at least nine U.S. government                       Reports Issued                  9          10(A)       ▲
                                  operations and programs with foreign policy
                                  implications, especially those under Chief of                                                                                                            IG1/PG1                        SG1/PG2                    IG1/PG1                        SG1/PG2
                                  Mission authority or related to international
                                  broadcasting and the free flow of information
                                  around the world; identify obstacles to Chief
                                  of Mission, Department, or BBG oversight and                                                                                                           SG4/PG2                              SG2/PG1               SG4/PG2                             SG2/PG1
                                  coordination of the operations and programs;
                                  and recommend actions necessary to remove
                                  or overcome them.
                                                                                                                                                                                          SG4/PG1                         SG2/PG2                    SG4/PG1                        SG2/PG2
     The Department and           Assess the adequacy of Department and BBG                    Reports Issued                  7          7 (O)       ↔
     the BBG adequately           security for their personnel, property, and            % of Recs. Resolved in 6            84%          90% (SA) ▲
     protect the people,          information at overseas missions and domestic                                                                                                                      SG3/PG2       SG3/PG1                                     SG3/PG2        SG3/PG1
                                                                                                Months
     information, and             locations, and ensure that, as appropriate,
     facilities under their       necessary corrective actions are implemented.         % of Recs. Closed in 1 year          67%          68% (A)     ▲
                                                                                           % of Significant Recs.                                                                      SIGNFICANTLY              SLIGHTLY                                        SLIGHTLY           SIGNFICANTLY
     control in the                                                                                                                                                                                                                     ON TARGET
     United States and                                                                       Closed in 1 Year                50%          92% (SA) ❑                                   BELOW TARGET            BELOW TARGET                                    ABOVE TARGET         ABOVE TARGET
     abroad.                                                                              % of Missions Security             90%          90% (O) ▲          Indicator replaced
                                                                                        Inspected within last 5 Years                                          so target N/A
                                  Identify vulnerabilities and recommend                Missions IT Inspected and             15          6 (SB)      ▼      Indicator replaced
                                  corrective actions with respect to information             Reports Issued                                                    so target N/A
                                  security and systems at no fewer than 15
                                  overseas missions.

     The Department               Identify challenges and vulnerabilities, with                Reports Issued                 21          21 (O)      ↔
     and the BBG have             recommendations to address them, for at least           % of Recs. Resolved in             72%          67% (B)     ▲            FY 2004
     the necessary                21 Department financial and administrative                    6 Months
     financial and                support programs and activities.
     support systems                                                                    % of Recs. Closed in 1 Year          72%          49% (SB) ▼               FY 2004
     and controls to                                                                       % of Significant Recs.            50%          38% (SB) ❑               FY 2004
     meet legal and                                                                          Closed in 1 Year
     operational
     requirements.                Evaluate Department and BBG progress in                      Reports Issued                 12          16 (SA)     ▲
                                  measuring performance or implementing the
                                  President’s Management Agenda, and
                                  recommend improvements, as appropriate.
     The Department and           Identify a minimum of $7.8 million in potential         $ Value of Cost Savings,       $7.8 million     $13 million
     the BBG ensure               monetary benefits as a result of audit and              Efficiencies, Recoveries,                           (SA) ▼
     accountability and           investigative recommendations to identify                       and Fines
     prevent or eliminate         fraud, waste, abuse, and mismanagement.
     fraud, waste, abuse,
     and mismanagement            Promote awareness and adherence to                       % of Cases Open less              60%          84% (SA) ▲
     in programs and              standards of professional and ethical conduct               than 200 Days
     operations.                  and accountability; where necessary, conduct
                                                                                            % of Cases Closed                80%          72% (SB) ▼               FY 2004
                                  thorough and expeditious investigations of
                                                                                             within 200 Days
                                  fraud, waste, abuse, and mismanagement.
     Internal Enabling            Attract and retain employees with the requisite              Staff on Hand                 218          225 (SA) ▲
     Goal                         professional skills and expertise in the areas                                             11%          13% (SB)2 ▼              FY 2005
                                                                                               Attrition Rate
                                  of foreign policy, financial auditing, information
                                  technology, security, program evaluation,
                                  investigations, and other areas of need.
                                  Issue a final report or other product within 183             Project Length                183          253 (SB)3 ▼              FY 2004
                                  days of starting a project.                           % of Projects Completed in           65%          28% (SB) ▼               FY 2004
                                                                                                183 Days

      1 (SA) = Significantly Above; (A) = Above; (O) = On Target; (B) = Below; (SB) = Significantly Below.
         Results in FY 2003 compared with those of FY 2002: ▲ = Better; ▼ = Worse; ↔ = the Same; ❑ = N/A.
      2 In this case, having a result higher than the target is undesirable and is noted as “signifcantly below the target” for consistency in indicating poor results.
      3 Ibid.



22                                                                                                                                                                                                                                                                                                 23
     Office of Inspector General                                                                                                                    U.S. Department of State and the Broadcasting Board of Governors




                                                                                                                                                 III. Performance Summary
                                                    Strategic Goal 1: FOREIGN POLICY
                                     The Department and the BBG effectively, efficiently, and economically advance                               The chart below shows the performance rating distribution of the FY 2003 results for the Foreign Policy strategic goal. Also shown
                                                   the foreign policy interests of the United States                                             is a comparison between the FY 2003 and FY 2002 average performance ratings for the goal. FY 2003 results produced a rating
                                                                                                                                                 of “slightly below target,” an improvement over last year’s “significantly below target” rating.
     I. Public Benefit


     The Department’s success in achieving U.S. foreign policy goals is influenced by the effective management and efficient and                                                                    STRATEGIC GOAL SUMMARY OF RESULTS ACHIEVED
     economical operation of overseas missions, domestic bureaus, and international broadcasting entities. OIG is mandated by the Foreign
     Service Act of 1980, as amended, to assess the effectiveness of foreign policy implementation. Through a program of post and bureau                                                                  3

     management inspections, OIG evaluates whether policy goals and objectives are being achieved, U.S. interests are effectively                                                                                        2
     represented, and posts are operating in consonance with U.S. foreign policy. Inspections also review whether resources are being used                                                                2
                                                                                                                                                                                       Number
     and managed effectively, efficiently, and economically; activities and operations are being administered in conformance with law and                                             of Results
                                                                                                                                                                                                                                              1                                        1                  1
     regulation; and management controls are in place to ensure quality performance and to reduce the likelihood of mismanagement.                                                                        1
     Inspections identify, and make recommendations to correct, vulnerabilities and inefficiencies, thereby improving the ability of posts
                                                                                                                                                                                                                                                            0                                                            0
     and bureaus to support the Department’s mission. OIG also reviews and evaluates operations and programs with foreign policy                                                                          0
     implications, including consular operations, export controls, border security, and international broadcasting.                                                                         V A L U E                    1                    2             3                          4                  5            N / A
                                                                                                                                                          Two                                                                                                                                                                        Average
                                                                                                                                                      Annual Goals                          Performance            Significantly          Slightly     On Target                     Above          Significantly   No 2003 Data   Performance
                                                                                                                                                      Represented                              Rating              Below Target         Below Target                                 Target         Above Target      Available
     OIG inspections provide assurance to the Secretary, the BBG, Congress, and American citizens that Department operations and                                                                                                                                                                                                     Rating*
                                                                                                                                                      TOTAL Number                                                                                                                                                                   FY 2003
     facilities are efficiently, effectively, and economically managed and that senior managers are fulfilling their responsibilities                                                           5                       2                     1            0                           1                  1              0
                                                                                                                                                        of Results                                                                                                                                                                  Slightly
     capably. In addition, inspector’s evaluation reports of ambassadors and deputy chiefs of mission at overseas posts, and of                                                                                Significantly              Slightly     On Target                Above               Significantly   No 2003         Below
                                                                                                                                                     Percent of Total                          100%                40%                      20%            0%                    20%                    20%              0%Data
                                                                                                                                                                                                               Below Target             Below Target                            Target              Above Target      Available      Target
     assistant secretaries and deputy assistant secretaries in domestic bureaus, are used by the Secretary and Congress to evaluate
                                                                                                                                                                                                                                                                                                                                     FY 2002
     the performance of senior Department managers as a basis for future appointments, promotions, and awards.                                                                                                                                                                                                                     Significantly
                                                                                                                                                                                                                                                                                                                                   Below Target

                                                                                                                                                                                            *The rating corresponds to the numerical average of the performance rating values for the reported results.

     II. Strategic Context

                                                                                                                                                 I V. R e s o u r c e s I n v e s t e d
     This strategic goal is supported by two performance goals. Shown below are the major activities/programs, resources, offices,
     and partners that contribute to accomplishment of the strategic goal.
                                                                                                                                                                                                Human Resources                                                                                 Budget Authority

         Strategic                      Performance                                     Activity/                       Lead          External                                                                                     67
           Goal                             Goal                                        Program                        Office(s)      Partners                                               70                                                                                               $12                       $11.0
                                                                                                                                                                                                              59                                                                                         $10.1
                                                                                                                                                                                             60




                                                                                                                                                                (Direct Funded Positions)
                                                                                                                                                                                                                                                                                              $10
                                  Identify opportunities to improve        Mission, bureau, and international          ISP & IBO        N/A
            Fo rei gn Po lic y




                                                                                                                                                                                                                                                                   ($ in Millions)
                                                                               broadcasting inspections                                                                                      50
                                 the management and operations of                                                                                                                                                            UP 14%                                                           $8
                                                                                                                                                                                                                                                                                                                       UP 9%
                                 overseas missions, domestic bureaus,                                                                                                                        40
                                   and international broadcasting                                                                                                                                                                                                                             $6
                                                                                                                                                                                             30
                                                                                                                                                                                                                                                                                              $4
                                 Evaluate operations and programs       Inspections, audits, evaluations, and other   ISP, AUD, and     N/A                                                  20
                                  with foreign policy implications;        reviews of foreign policy programs               IBO                                                                                                                                                               $2
                                                                                                                                                                                             10
                                 identify obstacles and recommend
                                     actions to overcome them                                                                                                                                  0                                                                                              $0
                                                                                                                                                                                                      FY 2002                FY 2003                                                                  FY 2002        FY 2003




24                                                                                                                                                                                                                                                                                                                                                 25
     Office of Inspector General                                                                                                                                                    U.S. Department of State and the Broadcasting Board of Governors




     V. P e r f o r m a n c e R e s u l t s



                                                 Performance Goal 1                                                                                                                                                A / P # 1 : M I S S I O N , B U R E A U , A N D I N T E R N AT I O N A L B R O A D C A S T I N G
          Identify opportunities for improving the management and operations of overseas missions, domestic bureaus,                                                                                                                                I N S P E C T I O N S Continued
                                              and international broadcasting activities                                                                                                                                    Improve operations through post management inspections, audits, and reviews

                                                                                                                                                                                                                                                                 OUTCOME INDICATOR
                                                                                                                                                                                                                           Indicator #2: Percentage of recommendations closed within 1 year of issuance
             A / P # 1 : M I S S I O N , B U R E A U , A N D I N T E R N AT I O N A L B R O A D C A S T I N G I N S P E C T I O N S




                                                                                                                                                                                    RE SU LT S
                                                                                                                                                                                                               2000        81%




                                                                                                                                                                                                  H IST ORY
                                              Improve operations through post management inspections, audits, and reviews
                                                                                                                                                                                                               2001        85%
                                                                          INTERMEDIATE OUTCOME INDICATOR
                                                                                                                                                                                                               2002        78%
                                            Indicator #1: Percentage of recommendations resolved within 6 months of issuance                                                                                   2003        78%
                                                                                                                                                                                                              Results
                                   2000
         RE S ULTS




                                              85%
                      H I STORY




                                                                                                                                                                                                               Target      85%




                                                                                                                                                                                       F Y 2 0 0 3 D ATA
                                   2001       57%
                                                                                                                                                                                                              Rating             Significantly Below Target
                                   2002       62%
                                                                                                                                                                                                                           Implementation and closure of OIG post management recommendations reduce or eliminate identified vulnerabilities and
                                   2003       72%
                                                                                                                                                                                                                           deficiencies. The result indicates that management may have disagreed with either the findings or the recommendations, that
                                  Results                                                                                                                                                                     Impact       the resolution process between management and OIG did not move quickly enough, or that the corrective action took longer than
                                  Target                                                                                                                                                                                   anticipated to implement. As a result, OIG-identified vulnerabilities and deficiencies are not being addressed in a timely
                                              85%
           F Y 2 0 0 3 D ATA




                                                                                                                                                                                                                           manner, continuing the inefficiencies or ineffectiveness that OIG found during the inspections.
                                  Rating            Significantly Below Target
                                                                                                                                                                                                                           Performance was significantly below the targeted level largely because of the need to shift resources supporting those efforts to
                                                                                                                                                                                                               Other       other important and unanticipated work. These resources have been reallocated to these efforts in FY 2004. We expect to achieve
                                              The result indicates that either management has some disagreement with OIG’s findings or recommendations or that the resolution                                  Issues
                                  Impact      process between management and OIG has not moved quickly enough, thus decreasing the likelihood that identified vulnerabilities                                              this target level in FY 2005. The FY 2004 target will be reduced to 80% rather than the previously planned target of 87%.
                                              and deficiencies will be corrected in a timely manner.

                                   Other      Performance was significantly below the targeted level due largely to the need to shift resources supporting those efforts to other
                                   Issues     important and unanticipated work. These resources have been reallocated to these efforts in FY 2004. We expect to achieve
                                              this target level in FY 2005. The FY 2004 target will be reduced to 80% rather than the previously planned target of 87%.                                                                  Recommendations Closed Within 1 Year of Issuance



                                                                                                                                                                                               100%
                                                        Recommendations Resolved Within 6 Months of Issuance                                                                                                               81%                       85%                                                                                 85%
                                                                                                                                                                                                                                                                                 78%                         78%
                                                                                                                                                                                                           80%

                                                                                                                                                                                                           60%
                    100%
                                              85%                                                                                                              85%
                                                                                                                                                                                                           40%
                               80%                                                                                                72%
                                                                         57%
                                                                                                      62%                                                                                                  20%
                               60%
                                                                                                                                                                                                              0%
                               40%                                                                                                                                                                                   FY 2000 Actual          FY 2001 Actual              FY 2002 Actual              FY 2003 Actual              FY 2003 Target

                               20%

                                  0%
                                       FY 2000 Actual            FY 2001 Actual              FY 2002 Actual               FY 2003 Actual              FY 2003 Target




26                                                                                                                                                                                                                                                                                                                                                             27
     Office of Inspector General                                                                                                                                                 U.S. Department of State and the Broadcasting Board of Governors




                                      A / P # 1 : M I S S I O N , B U R E A U , A N D I N T E R N AT I O N A L B R O A D C A S T I N G                                                                          A / P # 1 : M I S S I O N , B U R E A U , A N D I N T E R N AT I O N A L B R O A D C A S T I N G
                                                                        I N S P E C T I O N Continued                                                                                                                                            I N S P E C T I O N S Continued
                                              Improve operations through post management inspections, audits, and reviews                                                                                               Improve operations through post management inspections, audits, and reviews

                                                                                     OUTCOME INDICATOR                                                                                                                                                           OUTPUT INDICATOR
                                        Indicator #3: Percentage of significant recommendations closed within 1 year of issuance                                                                                              Indicator #4: Percentage of missions inspected within the last 5 years




                                                                                                                                                                                 RE SU LT S
       RE SU LT S




                                  2000        N/A                                                                                                                                                           2000        66%




                                                                                                                                                                                               H IST ORY
                     H IST ORY




                                  2001        N/A                                                                                                                                                           2001        64%

                                  2002        N/A                                                                                                                                                           2002        70%

                                  2003                                                                                                                                                                      2003        78%
                                              63%
                                 Results                                                                                                                                                                   Results
          F Y 2 0 0 3 D ATA




                                  Target      50%                                                                                                                                                           Target      79%




                                                                                                                                                                                    F Y 2 0 0 3 D ATA
                                 Rating             Significantly Above Target                                                                                                                             Rating             Slightly Below Target

                                              Implementation and closure of OIG post management recommendations reduce or eliminate identified vulnerabilities and                                                      OIG post management inspections provide a systematic and independent evaluation of the operations and management of
                                              deficiencies. The result indicates that Department and BBG management have taken corrective action on almost two-thirds                                                   these entities. This result indicates that approximately two fewer missions received inspections in the past 5 years than planned,
                                 Impact                                                                                                                                                                    Impact
                                              of OIG’s most significant recommendations, thus correcting the vulnerabilities identified in a timely manner. This should result                                          leaving them potentially vulnerable to management and operation problems that might have otherwise been discovered and
                                              in more efficient and effective operations at the entities inspected.                                                                                                     corrected.

                                  Other       Based on the results of FY 2003, the FY 2004 target level will be raised from 60% to 65%.                                                                                 Performance was slightly below the targeted level due largely to the need to shift resources supporting those efforts to other
                                  Issues                                                                                                                                                                                important and unanticipated work, resulting in the cancellation of several planned inspections. In FY 2004, OIG began
                                                                                                                                                                                                            Other       implementing a new integrated inspection process that combined post management, security, and information technology
                                                                                                                                                                                                            Issues
                                                                                                                                                                                                                        inspections. Consequently, for FY 2004, this indicator for mission inspections has been changed from a cumulative 5-year
                                                                                                                                                                                                                        percentage to a target number of inspections per year, reflecting resource constraints and a waiver to the 5-year requirement.

                                                    Significant Recommendations Closed Within 1 Year of Issuance


                                                                                                                                                                                                                                     Percentage of Missions Inspected Within Last 5 Years
                  100%

                              80%
                                                                                                                                  63%
                                                                                                                                                                                            100%
                              60%                                                                                                                             50%
                                                                                                                                                                                                                                                                                                             78%                          79%
                                                                                                                                                                                                        80%                                                                     70%
                              40%                                                                                                                                                                                       66%                        64%
                              20%                                                                                                                                                                       60%
                                              N/A                        N/A                         N/A
                                 0%                                                                                                                                                                     40%
                                        FY 2000 Actual          FY 2001 Actual               FY 2002 Actual              FY 2003 Actual               FY 2003 Target
                                                                                                                                                                                                        20%

                                                                                                                                                                                                           0%
                                                                                                                                                                                                                  FY 2000 Actual           FY 2001 Actual               FY 2002 Actual              FY 2003 Actual               FY 2003 Target




28                                                                                                                                                                                                                                                                                                                                                           29
     Office of Inspector General                                                                                                                                           U.S. Department of State and the Broadcasting Board of Governors




                                                                       Performance Goal 2                                                                                                                           Strategic Goal 2: SECURITY
                                      Evaluate operations and programs with foreign policy implications, identify obstacles,                                                                The Department and the BBG adequately protect the people, information, and facilities
                                                           and recommend actions to overcome them                                                                                                           under their control in the United States and abroad


                                                                                                                                                                        I. Public Benefit
                                A/P #2: INSPECTIONS, AUDITS, EVALUATIONS AND OTHER REVIEWS
                                                OF FOREIGN POLICY PROGRAMS                                                                                              With the continuing threat of terrorism and regional instability in the post-9/11 environment, the security of U.S. personnel,
                                                  Evaluate programs and operations with foreign policy implications                                                     facilities, and information remains an issue of overriding importance in terms of both personal and national security and the
                                                                                                                                                                        billions of dollars appropriated annually to protect them. OIG security inspections and audits play an essential role in
                                                                                  OUTPUT INDICATOR
                                                                                                                                                                        identifying and making recommendations to address security vulnerabilities that could compromise national security and
             Indicator #5: Number of U.S. government operations and programs with foreign policy implications evaluated                                                 threaten the safety and well-being of U.S. personnel and facilities domestically and abroad. During FY 2003, OIG conducted
                                                                                                                                                                        a program of full and limited scope security inspections at 36 overseas missions, as well as compliance follow-up reviews of
       RE S ULTS




                                 2000      9
                    H I STORY




                                                                                                                                                                        four previously inspected posts. OIG also implemented a new program of information security inspection evaluations, which
                                 2001      7
                                                                                                                                                                        were pilot tested in FY 2002, to provide in-depth reviews of, and to identify and correct vulnerabilities in, of the security of
                                 2002      8                                                                                                                            Department and BBG information systems.
                                 2003      10
                                Results
         F Y 2 0 0 3 D ATA




                                Target     9
                                                                                                                                                                        II. Strategic Context
                                Rating           Slightly Above Target

                                           OIG audits, inspections, and other reviews of Department and BBG programs and operations relating to issues such as visas,   This strategic goal is supported by two performance goals. Shown below are the major activities/programs, resources,
                                           passports, border security, and international broadcasting provide the Department, BBG, the Congress and the public with     bureaus, and partners that contribute to accomplishment of the strategic goal.
                                Impact
                                           objective assessments of the efficiency and/or effectiveness of these programs and operations; where appropriate, identify
                                           possible vulnerabilities or inefficiencies, and make recommendations necessary to correct them.

                                                                                                                                                                                                  Performance
                                                                                                                                                                           Strategic                                             Activity/                Lead                      External
                                                                                                                                                                                                      Goal
                                                                                                                                                                             Goal                   (Short Title)
                                                                                                                                                                                                                                 Program                 Office(s)                  Partners


                                     U.S. Government Operations & Programs with Foreign Policy Implications Reviewed                                                                         Assess the adequacy of      Mission and transmission        SIO & AUD                    N/A
                                                                                                                                                                                                security for people,     station security audits and
                                                                                                                                                                                            information, and property,           inspections




                                                                                                                                                                              S ec ur ity
                                                                                                                            10                                                              and recommend corrective
                                10         9                                                                                                            9                                      actions, as necessary
                                                                                                 8
                                8                                     7                                                                                                                      Identify vulnerabilities    Information security audits         IT                       N/A
                                                                                                                                                                                            and recommend corrective          and inspections
                                6                                                                                                                                                             actions with respect
                                                                                                                                                                                             to information systems
                                4                                                                                                                                                                 and security at
                                                                                                                                                                                                overseas missions
                                2

                                0
                                     FY 2000 Actual          FY 2001 Actual             FY 2002 Actual             FY 2003 Actual             FY 2003 Target




30                                                                                                                                                                                                                                                                                                         31
     Office of Inspector General                                                                                                                                                                            U.S. Department of State and the Broadcasting Board of Governors




     III. Performance Summary                                                                                                                                                                             V. P e r f o r m a n c e R e s u l t s


     The chart below shows the performance rating distribution of the FY 2003 results for the Security strategic goal. Also shown is
     a comparison between the FY 2003 and FY 2002 average performance ratings for the goal. FY 2003 results produced a rating of                                                                                                                                              Performance Goal 1
     “on target,” an improvement over last year’s “slightly below target” rating.
                                                                                                                                                                                                            Assess the adequacy of security for people, information, and property, and recommend corrective actions, as necessary


                                                         STRATEGIC GOAL SUMMARY OF RESULTS ACHIEVED
                                                                                                                                                                                                                                        A / P # 1 : M I S S I O N A N D T R A N S M I S S I O N S TAT I O N S E C U R I T Y A U D I T S
                                                                                                                                                                                                                                                                         AND INSPECTIONS
                                                               3
                                                                                                                                                                                                                                                           Protect people, information, and facilities at home and abroad
                                                                                                              2                                               2
                                                               2                                                                                                                                                                                                                          OUTPUT INDICATOR
                                         Number
                                        of Results
                                                                           1                                                              1
                                                                                                                                                                                                                                                                  Indicator #1: Programs reviewed and reports issued
                                                               1




                                                                                                                                                                                                              RE S ULTS
                                                                                                                                                                                                                                       2000      6




                                                                                                                                                                                                                           H I STORY
                                                                                                 0                                                                             0
                                                               0                                                                                                                                                                       2001      6
                                                 V A L U E                1                     2             3                            4                  5              N / A
                                                                                                                                                                                           Average                                     2002      7
              Two
          Annual Goals                           Performance         Significantly
                                                                    Significantly            Slightly
                                                                                            Slightly      OnTarget
                                                                                                          On Target                      Above
                                                                                                                                        Above            Significantly
                                                                                                                                                        Significantly    No2003
                                                                                                                                                                         No  2003Data
                                                                                                                                                                                  Data   Performance                                    2003
          Represented                               Rating          BelowTarget
                                                                    Below   Target         BelowTarget
                                                                                          Below  Target                                  Target
                                                                                                                                        Target          AboveTarget
                                                                                                                                                        Above   Target      Available
                                                                                                                                                                           Available                                                             7




                                                                                                                                                                                                                F Y 2 0 0 3 D ATA
                                                                                                                                                                                           Rating*                                     Results
         TOTAL Number                                6                    1                     0             2                            1                  2                0                                                       Target    7
           of Results                                                                                                                                                                      FY 2003

         Percent of Total
                                                                                                                                                                                         On Target                                     Rating          On Target
                                                    100%                17%                    0%           33%                          17%                33%               0%

                                                                                                                                                                                             FY 2002                                             OIG audits, inspections, and other reviews of Department and BBG security programs and operations provide the Department, BBG,
                                                                                                                                                                                         Slightly Below                                Impact    the Congress, and the public with objective assessments of the efficiency and/or effectiveness of these programs and operations;
                                                                                                                                                                                             Target                                              where appropriate, identify possible vulnerabilities or inefficiencies, and make recommendations necessary to correct them.

                                                 *The rating corresponds to the numerical average of the performance rating values for the reported results.



     I V. R e s o u r c e s I n v e s t e d
                                                                                                                                                                                                                                                      Security and Intelligence Programs Reviewed and Reports Issued


                                                      Human Resources                                                                               Budget Authority
                                                                                                                                                                                                                                       8
                                                                                                                                                                                                                                                                                                          7                            7                           7

                                                                                                                                                  $12                                                                                             6                           6
                                                   70                                64                                                                                                                                                6
                                                   60                                                                                             $10
                     (Direct Funded Positions)




                                                                   52
                                                                                                                                                                                                                                       4
                                                                                                                      ($ in Millions)




                                                   50                                                                                                                         $7.5
                                                                                                                                                  $8
                                                                               UP 23%                                                                         $6.7
                                                   40
                                                                                                                                                  $6                                                                                   2
                                                   30
                                                                                                                                                  $4                                                                                   0
                                                   20                                                                                                                      UP 12%
                                                                                                                                                                                                                                           FY 2000 Actual           FY 2001 Actual              FY 2002 Actual              FY 2003 Actual               FY 2003 Target
                                                   10                                                                                             $2

                                                    0                                                                                             $0
                                                           FY 2002             FY 2003                                                                    FY 2002         FY 2003




32                                                                                                                                                                                                                                                                                                                                                                                  33
     Office of Inspector General                                                                                                                                                   U.S. Department of State and the Broadcasting Board of Governors




                                   A / P # 1 : M I S S I O N A N D T R A N S M I S S I O N S TAT I O N S E C U R I T Y A U D I T S                                                                            A / P # 1 : M I S S I O N A N D T R A N S M I S S I O N S TAT I O N S E C U R I T Y A U D I T S
                                                                A N D I N S P E C T I O N S Continued                                                                                                                                      A N D I N S P E C T I O N S Continued
                                                        Protect people, information, and facilities at home and abroad                                                                                                           Protect people, information, and facilities at home and abroad

                                                                          INTERMEDIATE OUTCOME INDICATOR                                                                                                                                                      OUTCOME INDICATOR
                                           Indicator #2: Percentage of recommendations resolved within 6 months of issuance                                                                                            Indicator #3: Percentage of recommendations closed within 1 year of issuance
       RE SU LT S




                                  2000




                                                                                                                                                                                   RE SU LT S
                                              56%                                                                                                                                                            2000      60%
                     H IST ORY




                                                                                                                                                                                                 H IST ORY
                                  2001        70%                                                                                                                                                            2001      60%

                                  2002        82%                                                                                                                                                            2002      64%
                                  2003        90%                                                                                                                                                             2003     68%
                                 Results                                                                                                                                                                     Results




                                                                                                                                                                                      F Y 2 0 0 3 D ATA
          F Y 2 0 0 3 D ATA




                                  Target      84%                                                                                                                                                            Target    67%

                                 Rating             Significantly Above Target                                                                                                                               Rating          Slightly Above Target

                                              The result indicates that management agreed with nine out of 10 OIG security recommendations in a timely manner, thus                                                    Implementation and closure of OIG security recommendations reduce or eliminate identified vulnerabilities and deficiencies.
                                 Impact       increasing the likelihood that the vulnerabilities and deficiencies identified will be addressed relatively quickly, improving the                                       The result indicates that Department and BBG management have agreed with two-thirds of OIG’s security recommendations
                                              security of Department and BBG personnel, information, and facilities.                                                                                         Impact    and have taken the appropriate corrective action to address them in a very timely manner. As a result, and all other conditions
                                                                                                                                                                                                                       being equal, Department and BBG people, information, and facilities are believed to be more secure than they were at the
                                  Other       Performance was significantly above the target. Consequently, for FY 2004 we are raising the target from 87 percent to the                                               time of OIG’s reviews.
                                  Issues      FY 2003 level of 90 percent.




                                                                                                                                                                                                                              Security Recommendations Closed Within 1 Year of Issuance
                                                   Security Recommendations Resolved Within 6 Months of Issuance

                                                                                                                                                                                                                                                                                                          68%
                                                                                                                                                                                                          70%
                  100%                                                                                                                                                                                                                                                                                                                67%
                                                                                                                                   90%
                                                                                                      82%                                                       84%
                              80%                                        70%                                                                                                                              65%                                                                 64%

                              60%            56%
                                                                                                                                                                                                                       60%                        60%
                              40%                                                                                                                                                                         60%

                              20%
                                                                                                                                                                                                          55%
                                 0%                                                                                                                                                                              FY 2000 Actual          FY 2001 Actual              FY 2002 Actual               FY 2003 Actual              FY 2003 Target
                                      FY 2000 Actual             FY 2001 Actual               FY 2002 Actual              FY 2003 Actual               FY 2003 Target




34                                                                                                                                                                                                                                                                                                                                                       35
     Office of Inspector General                                                                                                                                            U.S. Department of State and the Broadcasting Board of Governors




                                   A / P # 1 : M I S S I O N A N D T R A N S M I S S I O N S TAT I O N S E C U R I T Y A U D I T S                                                                      A / P # 1 : M I S S I O N A N D T R A N S M I S S I O N S TAT I O N S E C U R I T Y A U D I T S
                                                                A N D I N S P E C T I O N S Continued                                                                                                                                A N D I N S P E C T I O N S Continued
                                                      Protect people, information, and facilities at home and abroad                                                                                                         Protect people, information, and facilities at home and abroad
                                                                                  OUTCOME INDICATOR                                                                                                                                                         OUTPUT INDICATOR
                                      Indicator #4: Percentage of significant recommendations closed within 1 year of issuance                                                                                  Indicator #5: Percentage of missions and bureaus inspected within the last 5 years
       RE SU LT S




                                  2000      N/A




                                                                                                                                                                            RE SU LT S
                     H IST ORY




                                                                                                                                                                                                       2000        59%




                                                                                                                                                                                          H IST ORY
                                  2001      N/A                                                                                                                                                        2001        73%

                                  2002      N/A                                                                                                                                                        2002        79%
                                  2003      92%                                                                                                                                                        2003
                                 Results                                                                                                                                                                           90%
                                                                                                                                                                                                      Results
                                 Target     50%                                                                                                                                                        Target      90%
          F Y 2 0 0 3 D ATA




                                                                                                                                                                               F Y 2 0 0 3 D ATA
                                 Rating           Significantly Above Target                                                                                                                          Rating             On Target

                                            Implementation and closure of OIG security recommendations reduce or eliminate identified vulnerabilities and deficiencies.                                            OIG security inspections provide a systematic and independent evaluation of the security of a Department mission, bureau,
                                            The result indicates that Department and BBG management have agreed with almost all of OIG’s most significant security                                                 or international broadcasting facility. The result indicates that in the past 5 years, 90% of Department missions have had a
                                 Impact     recommendations and taken the appropriate corrective action to address them in a very timely manner. As a result, and all                                 Impact
                                                                                                                                                                                                                   full or limited security inspection to assess the mission’s compliance with existing security standards, and as a result of these
                                            other conditions being equal, Department and BBG people, information, and facilities are believed to be more secure than they                                          inspections, all other conditions being equal, they are more secure than prior to the OIG inspection.
                                            were at the time of OIG’s reviews.
                                                                                                                                                                                                                   Performance was slightly below the targeted level largely due to the need to shift resources supporting those efforts to other
                                  Other     Performance was significantly above targeted levels for FY 2003. As a result, FY 2004’s target level will be increased from                                            important and unanticipated work. In FY 2003, OIG began implementing a new integrated inspection process that combined
                                  Issues    60 percent to 92 percent to maintain the level reached in FY 2003.                                                                                         Other       post management, security, and information technology inspections. Consequently, for FY 2004, this indicator for mission
                                                                                                                                                                                                       Issues
                                                                                                                                                                                                                   inspections has been changed from a cumulative 5-year percentage to a targeted number per year, reflecting resource constraints
                                                                                                                                                                                                                   and a waiver to the 5-year requirement.


                                                   Security Recommendations Closed Within 1 Year of Issuance

                                                                                                                                                                                                                                Percentage of Missions Inspected Within Last 5 Years
                                                                                                                              92%
                   100%

                              80%                                                                                                                                                      100%                                                                                                            90%                          90%
                              60%                                                                                                                                                                                                                                          79%
                                                                                                                                                          50%                                      80%                                        73%
                              40%                                                                                                                                                                                 59%
                                                                                                                                                                                                   60%
                              20%                                                                                                                                                                  40%
                                            N/A                       N/A                         N/A
                                 0%                                                                                                                                                                20%
                                      FY 2000 Actual          FY 2001 Actual              FY 2002 Actual             FY 2003 Actual              FY 2003 Target
                                                                                                                                                                                                      0%
                                                                                                                                                                                                           FY 2000 Actual             FY 2001 Actual              FY 2002 Actual               FY 2003 Actual              FY 2003 Target




36                                                                                                                                                                                                                                                                                                                                                     37
     Office of Inspector General                                                                                                                                                        U.S. Department of State and the Broadcasting Board of Governors




                                                                            Performance Goal 2                                                                                          Strategic Goal 3: Financial Management and Administrative Support
                                      Identify vulnerabilities and recommend corrective action with respect to information systems                                                                                  The Department and the BBG have the necessary financial and support systems and controls
                                                                     and security at overseas missions                                                                                                                                     to meet legal and operational requirements


                                        A / P # 2 : I N F O R M AT I O N S E C U R I T Y A U D I T S A N D I N S P E C T I O N S                                                     I. Public Benefit

                                                     Identify vulnerabilities to information systems at overseas missions
                                                                                                                                                                                     A significant portion of the foreign affairs budget is devoted to developing, maintaining, and securing the infrastructures—
                                                                                        OUTPUT INDICATOR                                                                             including physical facilities, information systems, financial management, grants management, procurement, personnel
                                 Indicator #6: Number of information security inspection evaluations performed at overseas missions                                                  systems, and administrative support services—that underlie and support the Department’s operations and provide a base for
                                                                                                                                                                                     the conduct of U.S. foreign policy. This strategic goal comprises many of the operations encompassed within the Department’s
       RE SU LTS




                                  2000        N/A
                    H I ST ORY




                                                                                                                                                                                     strategic objective to strengthen diplomatic and program capabilities and its strategic goal to achieve management and
                                  2001        N/A                                                                                                                                    organizational excellence in financial management, contracts and grants, property management, procurement and
                                  2002        7                                                                                                                                      departmental support activities, human resources, and other international programs and activities.
                                  2003        6
                                 Results                                                                                                                                             A substantial part of OIG resources is devoted to efforts supporting this goal, including addressing systemic weakness and security
                                 Target       15
                                                                                                                                                                                     vulnerabilities; ensuring accountability for the estimated $3 billion in federal financial assistance, including grants and cooperative
         F Y 2 0 0 3 D ATA




                                 Rating             Significantly Below Target                                                                                                       agreements, that is administered by the Department; and working with the Department and BBG to identify opportunities to
                                              OIG information security inspection evaluations provide a systematic and independent evaluation of the security of information
                                                                                                                                                                                     streamline operations and reduce infrastructure and operational costs, inefficiency, and redundancy, while increasing effectiveness,
                                 Impact       technology systems and information at Department missions and bureaus to ensure the security and integrity of the information          where possible. OIG audits and program evaluations assess these operations to evaluate whether established goals and objectives
                                              that they contain. OIG first piloted this inspection activity in FY 2002 to assess mission and bureau compliance with applicable
                                              information technology security standards, and to test these systems and applications.                                                 are achieved and resources are used economically and efficiently; to assess whether results are consistent with laws, regulation,
                                                                                                                                                                                     and good business practice; and to test financial accountability and reliability of financial statements.
                                              Performance was significantly below the targeted level largely due to the need to shift resources supporting those efforts to other
                                              important and unanticipated work. In FY 2003, OIG began implementing a new integrated inspection process that combined
                                 Other        post management, security, and information technology inspections. Consequently, for FY 2004, this indicator for mission inspections
                                 Issues       has been eliminated. The information technology security inspection evaluations will continue to be a part of every post management
                                              and security inspection. The results of these evaluations will be contained within the applicable post management inspection           II. Strategic Context
                                              and security inspection report rather than a separate information technology security inspection report.

                                                                                                                                                                                     This strategic goal is supported by two performance goals. Shown below are the major activities/programs, resources,
                                                                                                                                                                                     bureaus, and partners that contribute to accomplishment of the strategic goal.
                                           Information Security Inspection Evaluations Performed at Overseas Missions
                                                                                                                                                                                                                                Performance
                                                                                                                                                                                         Strategic                                                              Activity/               Lead              External
                                                                                                                                                                                                                                    Goal
                                                                                                                                                                                           Goal                                  (Short Title)
                                                                                                                                                                                                                                                                Program                Office(s)          Partners
                                                                                                                                                                   15
                                 15




                                                                                                                                                                                          Financial Management &
                                                                                                                                                                                           Administrative Support
                                                                                                                                                                                                                            Identify challenges &         Financial, program &       AUD, IT, IBO           N/A
                                                                                                                                                                                                                             vulnerabilities, with      operational audits & other
                                 10                                                                                                                                                                                     recommendations to address               reviews
                                                                                                         7
                                                                                                                                      6                                                                                    them, for financial and
                                                                                                                                                                                                                           administrative support
                                 5                                                                                                                                                                                         programs and activities

                                              N/A                         N/A                                                                                                                                          Evaluate progress in measuring      Inspections, audits,      AUD, IBO, ISP,         N/A
                                 0                                                                                                                                                                                     performance and implementing      evaluations, and other       IT, and SIO
                                        FY 2000 Actual           FY 2001 Actual               FY 2002 Actual                FY 2003 Actual               FY 2003 Target                                                  the PMA, and recommend         reviews of foreign policy
                                                                                                                                                                                                                               improvements                    programs




38                                                                                                                                                                                                                                                                                                                             39
     Office of Inspector General                                                                                                                                                                       U.S. Department of State and the Broadcasting Board of Governors




     III. Performance Summary                                                                                                                                                                        V. P e r f o r m a n c e R e s u l t s

     The chart below shows the performance rating distribution of the FY 2003 results for the Financial Management and Administrative
     Support strategic goal. Also shown is a comparison between the FY 2003 and FY 2002 average performance ratings for the goal.                                                                                                                                          Performance Goal 1
     FY 2003 results produced a rating of “slightly below target,” equal to last year’s “significantly below target” rating.
                                                                                                                                                                                                                               Identify challenges and vulnerabilities for financial and administrative support programs and activities,
                                                                                                                                                                                                                                                           and provide recommendations to address them
                                                         STRATEGIC GOAL SUMMARY OF RESULTS ACHIEVED

                                                                                                                                                                                                             A / P # 1 : F I N A N C I A L , P R O G R A M , A N D O P E R AT IO N A L AU D I TS , A N D OT H E R R E V I E W S
                                                               3
                                                                                                                                                                                                                                       The Department and the BBG have the necessary financial and support systems and controls
                                                                          2
                                                               2                                                                                                                                                                                                                      OUTPUT INDICATOR
                                          Number
                                         of Results                                                                                                                                                                                                            Indicator #1: Programs reviewed and reports issued
                                                                                               1            1                                              1
                                                               1




                                                                                                                                                                                                         RE S ULTS
                                                                                                                                                                                                                                   2000       14




                                                                                                                                                                                                                      H I STORY
                                                                                                                                        0                                 0
                                                               0                                                                                                                                                                   2001       15
                                                 V A L U E                1                    2             3                           4                 5            N / A
                                                                                                                                                                                      Average                                      2002       21
              Two
          Annual Goals                           Performance        Significantly          Slightly     On Target                     Above          Significantly   No 2003 Data   Performance                                    2003
          Represented                               Rating          Below Target         Below Target                                 Target         Above Target      Available                                                              21
                                                                                                                                                                                      Rating*                                     Results




                                                                                                                                                                                                           F Y 2 0 0 3 D ATA
         TOTAL Number                                5                   2                     1            1                            0                 1              0           FY 2003                                      Target     21
           of Results                                                                                                                                                                Slightly
                                                                   Significantly           Slightly     On 20%
                                                                                                           Target                     Above          Significantly   No 2003         Below                                         Rating           On Target
         Percent of Total                           100%               40%                   20%                                        0%               20%              0%Data      Target
                                                                   Below Target          Below Target                                 Target         Above Target      Available
                                                                                                                                                                                        FY 2002                                               OIG audits, inspections, and other reviews of Department and BBG financial management and administrative support programs
                                                                                                                                                                                    Slightly Below                                            and operations provide the Department, BBG, the Congress, and the public with objective assessments of the efficiency and/or
                                                                                                                                                                                        Target                                    Impact      effectiveness of these programs and operations and, where appropriate, identify possible vulnerabilities or inefficiencies and
                                                                                                                                                                                                                                              recommendations necessary to correct them.
                                                 *The rating corresponds to the numerical average of the performance rating values for the reported results.



     I V. R e s o u r c e s I n v e s t e d
                                                                                                                                                                                                                                   Financial and Administrative Support Programs and Activities Reviewed and Reports Issued



                                                     Human Resources                                                                             Budget Authority                                                                 25
                                                                                                                                                                                                                                                                                                     21                          21                          21
                                                                                                                                                                                                                                  20
                                                  70                                                                                           $12                                                                                                                       15
                                                               61                                                                                                                                                                 15          14
                                                  60                                                                                           $10
                     (Direct Funded Positions)




                                                                                    49                                                                    $7.0
                                                                                                                                                                                                                                  10
                                                                                                                    ($ in Millions)




                                                  50
                                                                                                                                               $8
                                                  40                                                                                                                                                                              5
                                                                                                                                               $6                        $5.6
                                                  30                          DOWN 25%
                                                                                                                                                                                                                                  0
                                                                                                                                               $4
                                                  20                                                                                                                 DOWN 20%                                                           FY 2000 Actual          FY 2001 Actual              FY 2002 Actual              FY 2003 Actual              FY 2003 Target
                                                  10                                                                                           $2

                                                    0                                                                                          $0
                                                           FY 2002            FY 2003                                                                  FY 2002        FY 2003




40                                                                                                                                                                                                                                                                                                                                                                             41
     Office of Inspector General                                                                                                                                               U.S. Department of State and the Broadcasting Board of Governors




                                      A / P # 1 : F I N A N C I A L , P R O G R A M , A N D O P E R AT I O N A L A U D I T S , A N D                                                                          A / P # 1 : F I N A N C I A L , P R O G R A M , A N D O P E R AT I O N A L A U D I T S , A N D
                                                                     OT H E R R E V I E W S Continued                                                                                                                                        OT H E R R E V I E W S Continued
                                      The Department and the BBG have the necessary financial and support systems and controls                                                                                The Department and the BBG have the necessary financial and support systems and controls

                                                                         INTERMEDIATE OUTCOME INDICATOR                                                                                                                                                      OUTCOME INDICATOR
                                           Indicator #2: Percentage of recommendations resolved within 1 year of issuance                                                                                           Indicator #3: Percentage of recommendations closed within 1 year of issuance




                                                                                                                                                                               RE SU LT S
       RE SU LT S




                                  2000       72%                                                                                                                                                          2000       72%




                                                                                                                                                                                             H IST ORY
                     H IST ORY




                                  2001       65%                                                                                                                                                          2001       26%

                                  2002       44%                                                                                                                                                          2002       58%

                                  2003       67%                                                                                                                                                          2003       49%
                                 Results                                                                                                                                                                 Results
                                  Target     72%                                                                                                                                                          Target     72%




                                                                                                                                                                                  F Y 2 0 0 3 D ATA
          F Y 2 0 0 3 D ATA




                                 Rating            Slightly Below Target                                                                                                                                 Rating            Significantly Below Target

                                             The result indicates that either management has some disagreement with the finding or the recommendations or the resolution                                             Implementation and closure of OIG financial management and administrative support recommendations reduce or eliminate
                                 Impact      process between management and OIG has not moved quickly enough, thus decreasing the likelihood that identified vulnerabilities                                         identified vulnerabilities and deficiencies. The result indicates that either management has some disagreement with the finding
                                                                                                                                                                                                         Impact
                                             and deficiencies will be corrected in a timely manner.                                                                                                                  or the recommendations or the resolution process between management and OIG has not moved quickly enough, thus
                                                                                                                                                                                                                     decreasing the likelihood that identified vulnerabilities and deficiencies will be corrected in a timely manner.
                                             Performance was slightly below the targeted level due largely to the need to shift resources supporting those efforts to other
                                             important and unanticipated work, Department and BBG disagreement with OIG findings or recommendations, failure of                                                      Performance was significantly below the targeted level due largely to the need to shift resources supporting those efforts to other
                                  Other      management and OIG to conduct the resolution process in a timely manner, or corrective actions that took longer to implement                                 Other
                                                                                                                                                                                                                     important and unanticipated work, Department and BBG disagreement with OIG findings or recommendations, implementation
                                  Issues     than planned. For FY 2004 OIG plans to devote the required resources to compliance follow-up activities and to work more                                     Issues     that took longer than expected or failure to respond to recommendations in a timely manner. For FY 2004 OIG plans to devote
                                             proactively with the Department and BBG to address OIG recommendations. The revised FY 2004 target will reflect a reduction                                             the required resources to compliance follow-up activities and to work more proactively with the Department and BBG to address
                                             from 75% to the FY 2003 target of 72%.                                                                                                                                  OIG recommendations. The revised FY 2004 target will reflect a reduction from 75 percent to the FY 2003 target of 72 percent.




              Financial Management and Administrative Support Recommendations Resolved Within 6 Months of Issuance                                                                               Financial Management and Administrative Support Recommendations Closed Within 1 Year of Issuance



                              80%           72%                                                                                                             72%                                       80%           72%                                                                                                                 72%
                                                                        65%                                                     67%

                                                                                                                                                                                                      60%                                                                     58%
                              60%
                                                                                                                                                                                                                                                                                                           49%
                                                                                                    44%
                              40%                                                                                                                                                                     40%
                                                                                                                                                                                                                                                26%
                              20%                                                                                                                                                                     20%

                                 0%                                                                                                                                                                      0%
                                      FY 2000 Actual           FY 2001 Actual              FY 2002 Actual               FY 2003 Actual              FY 2003 Target                                            FY 2000 Actual            FY 2001 Actual               FY 2002 Actual               FY 2003 Actual               FY 2003 Target




42                                                                                                                                                                                                                                                                                                                                                         43
     Office of Inspector General                                                                                                                                                       U.S. Department of State and the Broadcasting Board of Governors




                                      A / P # 1 : F I N A N C I A L , P R O G R A M , A N D O P E R AT I O N A L A U D I T S , A N D                                                                                                                     Performance Goal 2
                                                                     OT H E R R E V I E W S Continued
                                      The Department and the BBG have the necessary financial and support systems and controls                                                                                  Identify progress on measuring performance and implementing the President’s Management Agenda

                                                                                        OUTCOME INDICATOR
                                      Indicator #4: Percentage of significant recommendations closed within 1 year of issuance
       RE SU LT S




                                  2000         N/A                                                                                                                                                               A / P # 2 : I N S P E C T I O N S , A U D I T S , E VA L U AT I O N S A N D O T H E R R E V I E W S
                     H IST ORY




                                                                                                                                                                                                                                             OF FOREIGN POLICY PROGRAMS
                                  2001         N/A
                                                                                                                                                                                                                                     Progress in measuring performance and implementing the PMA
                                  2002         N/A

                                  2003                                                                                                                                                                                                                             OUTCOME INDICATOR
                                               38%
                                 Results
                                                                                                                                                                                                                     Indicator #5: Number of reports issued relating to performance measurement or the (PMA)
                                  Target       50%
          F Y 2 0 0 3 D ATA




                                                                                                                                                                                       RE S ULTS
                                                                                                                                                                                                                  2000      4




                                                                                                                                                                                                    H I STORY
                                 Rating               Significantly Below Target

                                               Implementation and closure of OIG financial management and administrative support recommendations reduce or eliminate                                              2001      4

                                 Impact        identified vulnerabilities and deficiencies. The result indicates that either management has some disagreement with the finding
                                                                                                                                                                                                                  2002      5
                                               or the recommendations or the resolution process between management and OIG has not moved quickly enough, thus
                                               decreasing the likelihood that the most significant vulnerabilities and deficiencies identified will be corrected in a timely manner.                              2003      16
                                                                                                                                                                                                                 Results
                                               Performance was significantly below the targeted level due largely to the need to shift resources supporting those efforts to other




                                                                                                                                                                                         F Y 2 0 0 3 D ATA
                                                                                                                                                                                                                 Target     12
                                  Other        important and unanticipated work, Department and BBG disagreement with OIG findings or recommendations, implementation
                                  Issues       that took longer than expected or failure to respond to recommendations in a timely manner. For FY 2004 OIG plans to devote
                                               the required resources to compliance follow-up activities and to work more proactively with the Department and BBG to address                                     Rating           Significantly Above Target
                                               OIG recommendations. The revised FY 2004 target will reflect a reduction from 60 percent to the FY 2003 target of 50 percent.
                                                                                                                                                                                                                            OIG audits, inspections, and other reviews of Department and BBG operations and programs involving performance measurement
                                                                                                                                                                                                                 Impact     or the PMA provide the Department, BBG, the Congress, and the public with objective assessments of the efficiency and/or
                                                                                                                                                                                                                            effectiveness of these programs and operations and, where appropriate, identify possible vulnerabilities or inefficiencies and
                                                                                                                                                                                                                            recommendations necessary to correct them.
                                           Significant Financial Management and Administrative Support Recommendations                                                                                           Other      The FY 2004 Target of 12 reports will not be revised.
                                                                   Closed Within 1 Year of Issuance                                                                                                              Issues


                              80%
                                                                                                                                                                                                                Reports Issued Evaluating Department Success in Measuring Performance or Implementing the PMA
                              60%
                                                                                                                                                                    50%

                              40%                                                                                                     38%
                                                                                                                                                                                                                20
                              20%                                                                                                                                                                                                                                                                              16
                                                                                                                                                                                                                15
                                              N/A                          N/A                           N/A
                                                                                                                                                                                                                                                                                                                                           12
                                 0%
                                      FY 2000 Actual              FY 2001 Actual                FY 2002 Actual               FY 2003 Actual                FY 2003 Target                                       10

                                                                                                                                                                                                                                                                                    5
                                                                                                                                                                                                                 5           4                          4


                                                                                                                                                                                                                 0
                                                                                                                                                                                                                      FY 2000 Actual          FY 2001 Actual              FY 2002 Actual              FY 2003 Actual              FY 2003 Target




44                                                                                                                                                                                                                                                                                                                                                           45
     Office of Inspector General                                                                                                                 U.S. Department of State and the Broadcasting Board of Governors




                                                                                                                                              III. Performance Summary
                                                               Strategic Goal 4: Accountability
                                  The Department and the BBG ensure accountability and prevent or eliminate fraud, waste, abuse,              The chart below shows the performance rating distribution of the FY 2003 results for the Accountability strategic goal. Also
                                                        and mismanagement in programs and operations                                          shown is a comparison between the FY 2003 and FY 2002 average performance ratings for the goal. FY 2003 results produced
                                                                                                                                              a rating of “on target,” equal to last year’s “on target” rating.

     I. Public Benefit
                                                                                                                                                                                                 STRATEGIC GOAL SUMMARY OF RESULTS ACHIEVED

     All government employees must conform to fundamental guiding principles governing professional and ethical conduct, as                                                                            3
     defined in law, executive order, regulation, policy, and procedure, as well as personal and management accountability. OIG
     promotes accountability and integrity in Department programs and operations through audits of selected grantees and                                                                                                                                                                           2
                                                                                                                                                                                                       2
     contractors to determine whether the organizations expended federal funds for the intended purpose of the agreement and                                                       Number
     in accordance with applicable federal laws and regulations related to the agreement’s terms and conditions. OIG also is                                                      of Results
                                                                                                                                                                                                                  1
     mandated to prevent and detect waste, fraud, abuse, and mismanagement. Specific allegations or other information indicating                                                                       1

     possible violations of law or regulation are investigated by OIG investigators, supported by experts from other OIG offices, as                                                                                                   0             0                          0                                  0
     appropriate. In addition, OIG works proactively to educate and share best practices with targeted audiences—such as new                                                                           0
                                                                                                                                                                                         V A L U E                1                    2             3                           4                 5             N / A
     Ambassadors, deputy chiefs of mission, and Foreign Service and Civil Service employees—to improve adherence to standards                          Two                                                                                                                                                                    Average
                                                                                                                                                                                         Performance        Significantly          Slightly     On Target                     Above          Significantly   No 2003 Data   Performance
     of accountability by ensuring that employees of the foreign affairs agencies are informed of, and understand, the standards                   Annual Goals
                                                                                                                                                                                            Rating          Below Target         Below Target                                 Target         Above Target      Available
                                                                                                                                                   Represented                                                                                                                                                                Rating*
     specific to their professional and ethical conduct.
                                                                                                                                                  TOTAL Number                               3                   1                     0            0                            0                 2               0
                                                                                                                                                    of Results                                                                                                                                                                FY 2003
                                                                                                                                                                                                                                                                                                                            On Target
                                                                                                                                                  Percent of Total                          100%                33%                   0%           0%                           0%               67%              0%
     II. Strategic Context                                                                                                                                                                                 Significantly           Slightly     On Target                     Above          Significantly   No 2003 Data
                                                                                                                                                                                                           Below Target          Below Target                                 Target         Above Target      Available
                                                                                                                                                                                                                                                                                                                               FY 2002

     This strategic goal is supported by two performance goals. Shown below are the major activities/programs, resources,                                                                                                                                                                                                     On Target


     bureaus, and partners that contribute to accomplishment of the strategic goal.                                                                                                      *The rating corresponds to the numerical average of the performance rating values for the reported results.




        Strategic
                                             Performance
                                                                                     Activity/                      Lead           External
                                                                                                                                              I V. R e s o u r c e s I n v e s t e d
                                                 Goal
          Goal                                 (Short Title)
                                                                                     Program                       Office(s)       Partners


                                      Identify potential monetary     Audits, Inspections, program evaluations,   AUD, IBO, ISP,     N/A
                                      benefits as a result of audit      other reviews & investigations           IT, SIO & INV                                                              Human Resources                                                                             Budget Authority
           A cco un ta b ili ty




                                          and investigative
                                          recommendations
                                                                                                                                                                                          70                                                                                           $12
                                                                             Employee investigations
                                       Promote awareness and                                                                                                                              60
                                                                                                                       INV           N/A                                                                                                                                               $10




                                                                                                                                                             (Direct Funded Positions)
                                      adherence to standards of                                                                                                                                                             45
                                                                                                                                                                                                       46




                                                                                                                                                                                                                                                            ($ in Millions)
                                       professional and ethical                                                                                                                           50
                                                                                                                                                                                                                                                                                       $8
                                      conduct and accountability,                                                                                                                         40
                                      and conduct thorough and                                                                                                                                                                                                                         $6          $5.4
                                                                                                                                                                                                                      DOWN 2%                                                                                     $5.0
                                      expeditious investigations                                                                                                                          30
                                                                                                                                                                                                                                                                                       $4
                                                                                                                                                                                          20
                                                                                                                                                                                                                                                                                                              DOWN 7%
                                                                                                                                                                                          10                                                                                           $2

                                                                                                                                                                                            0                                                                                          $0
                                                                                                                                                                                                   FY 2002            FY 2003                                                                  FY 2002        FY 2003




46                                                                                                                                                                                                                                                                                                                                        47
     Office of Inspector General                                                                                                                                                         U.S. Department of State and the Broadcasting Board of Governors




     V. P e r f o r m a n c e R e s u l t s
                                                                                                                                                                                                                                                            Performance Goal 2

                                                                                                                                                                                                                         Promote awareness and adherence to standards of professional and ethical conduct and
                                                                                 Performance Goal 1                                                                                                                               accountability, and conduct thorough and expeditious investigations

                                           Identify potential monetary benefits as a result of audit and investigative recommendations

                                                                                                                                                                                                                                               A / P # 2 : E M P L O Y E E I N V E S T I G AT I O N S
                                                                                                                                                                                                                                           Conduct routine employee investigations in a timely manner
                A/P #1:                         A U D I T S , I N S P E C T I O N S , P R O G R A M E VA L U AT I O N S , O T H E R R E V I E W S
                                                                            A N D I N V E S T I G AT I O N S                                                                                                                                                            OUTPUT INDICATOR
                                                                                       Identify monetary benefits                                                                                                    Indicator #2: Percentage of open cases still open within targeted number of days at end of year

                                                                                INTERMEDIATE OUTCOME INDICATOR                                                                                                      Days                   <100                           101-200                             201-300                            >300




                                                                                                                                                                                         RE S U LTS
                                                                                                                                                                                                       H I STORY
                                                 Indicator #1: Potential value of efficiencies identified in OIG recommendations                                                                                    2000                   45%                              30%                                 0%                                25%

                                                                                                                                                                                                                    2001
         RE S ULTS




                                       2000        $3.23 million                                                                                                                                                                           26%                              21%                                16%                                37%
                          H I STORY




                                       2001        $12.49 million                                                                                                                                                   2002                   45%                               5%                                20%                                30%
                                                                                                                                                                                                                    2003
                                       2002        $40.04 million                                                                                                                                                                          76%                               8%                                 8%                                8%
                                                                                                                                                                                                                   Results




                                                                                                                                                                                            F Y 2 0 0 3 D ATA
                                       2003        $13 million                                                                                                                                                     Target                  50%                              10%                                15%                                25%
                                      Results
              F Y 2 0 0 3 D ATA




                                       Target      $7.8 million                                                                                                                                                    Rating             Significantly Above Target

                                      Rating              Significantly Above Target                                                                                                                                            The longer it takes to complete an investigation, the longer it takes to take the proper administrative or criminal action or
                                                                                                                                                                                                                   Impact
                                                                                                                                                                                                                                exonerate an employee cleared of unfounded allegations.
                                                   OIG recommendations identify questioned costs and funds put to better use that, if realized, result in funds being returned
                                      Impact       to or retained by the Department and BBG and/or being available for better use. Investigative recoveries result in court-                                        Other       Although we were able to exceed FY 2003 targets by a significant margin, we do not expect this to be repeated in FY 2004
                                                   ordered fines and restitutions and administrative recoveries.                                                                                                    Issues      and, accordingly, are not revising our FY 2004 targets.

                                       Other       Because of the unpredictability of the cost efficiencies identified as a result of OIG’s activities, despite the performance of the
                                       Issues      last three years, the FY 2004 target will remain $8.6 million.

                                                                                                                                                                                                                             Days Ongoing Employee Investigations Were Open at the End of the Fiscal Year


                                                         Potential Value of Cost Savings and Efficiencies Identified by OIG
                                                                                                                                                                                                                100%

                                                                                                                                                                                                                   80%




                                                                                                                                                                                           Percent of Cases
                                  $50
                                                                                                          $40.04                                                                                                   60%
                                  $40
        ($ in Millions)




                                                                                                                                                                                                                   40%
                                  $30
                                                                                                                                                                                                                   20%
                                  $20
                                                                             $12.49                                                    $13.00                                                                      0%
                                  $10                                                                                                                                $7.80                                                 FY 2000 Actual           FY 2001 Actual              FY 2002 Actual             FY 2003 Actual              FY 2003 Target
                                                 $3.23
                                      $0
                                                                                                                                                                                                                                       <100 days               101-200 days                 201-300 days                >300 days
                                            FY 2000 Actual            FY 2001 Actual               FY 2002 Actual               FY 2003 Actual               FY 2003 Target




48                                                                                                                                                                                                                                                                                                                                                              49
     Office of Inspector General                                                                                                                                                   U.S. Department of State and the Broadcasting Board of Governors




                                                      A / P # 2 : E M P L O Y E E I N V E S T I G AT I O N S Continued                                                                                                                Internal Enabling Goal
                                                          Conduct routine employee investigations in a timely manner                                                                                                                    OIG Management Excellence
                                                                                      OUTPUT INDICATOR
                                                Indicator #3: Percentage of cases closed within targeted number of days
                                                                                                                                                                                I. Public Benefit
                                   Days                  <100                            101-200                             201-300                             >300
       RE SU LT S
                      H IST ORY




                                   2000                  27%                               20%                                 10%                                43%           In addition to the performance goals supporting our four strategic goals, OIG has established two internal “enabling” goals
                                   2001                  53%                               20%                                 7%                                 20%           that support our remaining strategic goals by ensuring that we have the people we need and that our work results in timely
                                   2002                  58%                               17%                                 8%                                 17%
                                                                                                                                                                                products. These and several other initiatives related to internal management improvements, discussed below, are directed
                                   2003                                                                                                                                         toward ensuring that OIG operations are efficient, effective, and well-structured to achieve OIG’s core statutory mission.
                                                         44%                               28%                                 11%                                17%
                                  Results
                                  Target                 58%                               22%                                 8%                                 12%           Our FY 2003 performance goals under our internal enabling goals focused on attracting and retaining employees with needed
           F Y 2 0 0 3 D ATA




                                  Rating            Significantly Below Target                                                                                                  professional skills and experience and issuing a final report or other product within six months (183 days) of starting a project.
                                                                                                                                                                                Overall, these were our least successful results, falling short on three of four quantitative targets, although we did achieve
                                              The longer it takes to complete an investigation, the longer it takes to take the proper administrative or criminal action or
                                  Impact
                                              exonerate an employee cleared of unfounded allegations.                                                                           some significant qualitative successes.

                                  Other       Our efforts under this goal were hindered by a decision to reallocate travel funds to fund other unanticipated, higher priority
                                  Issues      OIG work that surfaced during the year. Consequently, we were able to investigate fewer cases, resulting in those cases that
                                              were still open being open longer than desired so cases that could be closed were done so as quickly as possible.
                                                                                                                                                                                II. Management Context
                                              Our performance on those targets was significantly above our targets levels. We expect to achieve our FY 2003 targets in
                                              FY 2004, having lowered our FY 2004 targets accordingly.

                                                                                                                                                                                This internal enabling goal is supported by two performance goals. Shown below are the major activities/programs,
                                                                                                                                                                                resources, and offices that contribute to accomplishment of the goal.
                                                     Days to Close Employee Investigations Completed in Fiscal Year
                                                                                                                                                                                                             Performance
                                                                                                                                                                                    Strategic                                                      Activity/                 Lead               External
                                                                                                                                                                                                                 Goal
                                                                                                                                                                                      Goal                     (Short Title)
                                                                                                                                                                                                                                                   Program                  Office(s)           Partners
                               100%




                                                                                                                                                                                     OIG Management
                                                                                                                                                                                                          Attract and retain              Employee recruitment and            ADM                  N/A
                                  80%                                                                                                                                                                    employees with the                      retention
        Percent of Cases




                                                                                                                                                                                        Excellence
                                                                                                                                                                                                      requisite professional skills
                                  60%                                                                                                                                                                        and expertise
                                  40%
                                                                                                                                                                                                      Issue a final report or other      Audit, inspection, performance   AUD, IBO, ISP,           N/A
                                  20%
                                                                                                                                                                                                      product within six months          evaluation, and other projects      IT, SIO
                                  0%                                                                                                                                                                     of starting a project
                                          FY 2000 Actual           FY 2001 Actual              FY 2002 Actual              FY 2003 Actual              FY 2003 Target


                                                     <100 days                101-200 days                 201-300 days                >300 days




50                                                                                                                                                                                                                                                                                                                   51
     Office of Inspector General                                                                                                                             U.S. Department of State and the Broadcasting Board of Governors




     III. Performance Summary                                                                                                                              V. P e r f o r m a n c e R e s u l t s


     The chart below shows the performance rating distribution of the FY 2003 results for the Internal Enabling goals strategic goal.
     Also shown is a comparison between the FY 2003 and FY 2002 average performance ratings for the goal. FY 2003 results                                                                                                          Performance Goal 1
     produced a rating of “slightly below target,” equal to last year’s “significantly below target” rating.
                                                                                                                                                                                                  Attract and retain employees with the requisite professional skills and expertise


                                      INTERNAL GOAL SUMMARY OF RESULTS ACHIEVED
                                                                                                                                                                                                     A/P #1: EMPLOYEE RECRUITMENT AND RETENTION
                                          6
                                                                                                                                                                                                                                               Attract Employees

                                                                                                                                                                                                                                            OUTCOME INDICATOR
                                          4
                          Number                    3
                                                                                                                                                                                                                     Indicator #1: Number of staff on hand at end of year
                         of Results

                                          2




                                                                                                                                                               RE S ULTS
                                                                                                                                                                                        2000        218




                                                                                                                                                                            H I STORY
                                                                                                                   1

                                                                    0              0              0                                0                                                    2001        223
                                          0
                             V A L U E              1               2             3               4                5             N / A
                                                                                                                                                                                        2002        218
              Two                                                                                                                           Average
                                                                                                                                                                                         2003       225
          Annual Goals      Performance       Significantly     Slightly      On Target         Above        Significantly   No 2003 Data Performance
                                                                                                                                                                                        Results
                               Rating         Below Target    Below Target                      Target       Above Target      Available




                                                                                                                                                                 F Y 2 0 0 3 D ATA
          Represented                                                                                                                       Rating*
                                                                                                                                                                                        Target      218
         TOTAL Number           4                   3              0              0               0                1               0        FY 2003
           of Results                                                                                                                      Slightly                                     Rating            Significantly Above Target
         Percent of Total
                                                                                                                                           Below
                               100%               75%             0%             0%              0%              25%              0%        Target                                                  The more appropriately skilled staff on hand, the more projects and/or the sooner OIG will be able to complete projects providing
                                                                                                                                                                                        Impact
                                                                                                                                              FY 2002                                               adequate oversight of Department and BBG activities.
                                                                                                                                          Slightly Below
                                                                                                                                              Target                                    Other       Although OIG was able to fill many vacancies by the end of the year, the attrition rate, the length of time to complete background
                                                                                                                                                                                        Issues      security clearances, and the budget resources available to hire personnel will largely drive the number of staff that OIG is able to
                            *The rating corresponds to the numerical average of the performance rating values for the reported results.                                                             attract.




     I V. R e s o u r c e s I n v e s t e d                                                                                                                                                                                    Staff on Hand at End of Fiscal Year


     All human resources and dollars expended under OIG’s budget authority in support of this internal enabling goal have been                                                       226
     allocated to our four strategic goals.                                                                                                                                                                                                                                               225
                                                                                                                                                                                     224                                        223
                                                                                                                                                                                     222
                                                                                                                                                                                     220
                                                                                                                                                                                                   218                                                       218                                                        218
                                                                                                                                                                                     218
                                                                                                                                                                                     216
                                                                                                                                                                                     214
                                                                                                                                                                                             FY 2000 Actual            FY 2001 Actual               FY 2002 Actual               FY 2003 Actual               FY 2003 Target




52                                                                                                                                                                                                                                                                                                                                         53
     Office of Inspector General                                                                                                                                                  U.S. Department of State and the Broadcasting Board of Governors




                                           A / P # 1 : E M P L O Y E E R E C R U I T M E N T A N D R E T E N T I O N Continued                                                                                                                      Performance Goal 2
                                                                                         Retain Employees                                                                                                               Issue a final report or other product within six months of starting a project
                                                                                      OUTCOME INDICATOR
                                                                                  Indicator #2: Attrition rate
                                                                                                                                                                                       A / P # 2 : A U D I T, I N S P E C T I O N , P E R F O R M A N C E E VA L UAT IO N , A N D OT H E R P R O J E C TS
       RE SU LT S




                                  2000         17%
                     H IST ORY




                                                                                                                                                                                                                                                       Improve timeliness of reports
                                  2001         16%

                                  2002         11%                                                                                                                                                                                                            OUTPUT INDICATOR
                                  2003         13%                                                                                                                                                                                Indicator #3: Average number of days to complete projects
                                 Results




                                                                                                                                                                                  RE SU LT S
                                  Target       11%                                                                                                                                                           2000      267




                                                                                                                                                                                                H IST ORY
                                  Rating             Significantly Below Target                                                                                                                              2001      252
          F Y 2 0 0 3 D ATA




                                               The more appropriately skilled staff on hand, the more projects and/or the sooner OIG will be able to complete projects to                                    2002      250
                                               provide adequate oversight of Department and BBG activities. A high attrition rate also increases the number of vacancies
                                  Impact                                                                                                                                                                     2003      253
                                               during the year and the time that must be spent training new employees, thus reducing the efficiency, if not the effectiveness,
                                                                                                                                                                                                            Results
                                               of operations.
                                                                                                                                                                                                             Target    183




                                                                                                                                                                                     F Y 2 0 0 3 D ATA
                                               Our attrition rate was higher than targeted (this is worse than desired, so we consider it to be “below” our target).
                                               OIG experienced a higher level of attrition than expected in FY 2003 due, in part, to the departure of our former Inspector                                   Rating          Significantly Below Target
                                               General to a new federal agency. His departure was followed by the loss of seven other OIG employees to the same agency,
                                               including four assistant inspectors general or equivalents. An additional employee left for that agency at the beginning of                                             This indicates that, on average, our projects are taking almost eight and a half months to complete. As a result, our
                                  Other
                                               FY 2004. While the departures to the new federal agency are expected to stabilize, OIG may not be able to significantly reduce                               Impact     products are less timely and any identified vulnerabilities may take longer than necessary to correct.
                                  Issues
                                               attrition until all senior management positions are filled and stability is restored to the organization. As of the beginning of
                                               FY 2004, three senior management positions within OIG remain vacant, including the Inspector General's position. Of these
                                               three positions, one is in the process of being filled. For FY 2004, the target will be revised to 12 percent from 11percent.                                           Performance was significantly below the targeted level, due largely to a higher than expected attrition rate and the need to
                                                                                                                                                                                                             Other
                                                                                                                                                                                                                       shift resources supporting those efforts to other important and unanticipated work. Consequently, many ongoing projects
                                                                                                                                                                                                             Issues
                                                                                                                                                                                                                       lost staff or had staff available only part time, which caused delays. We expect to achieve this target in FY 2004.




                                                                         Attrition Rate at End of Fiscal Year
                                                                                                                                                                                                                                       Average Number of Days to Complete Projects


                          20%
                                              17%                                                                                                                                                        300
                                                                         16%                                                                                                                                          267
                                                                                                                                                                                                                                                 252                         250                        253
                          15%                                                                                                     13%                                                                    250
                                                                                                      11%                                                      11%
                                                                                                                                                                                                         200                                                                                                                        183
                          10%
                                                                                                                                                                                                         150
                                 5%                                                                                                                                                                      100
                                                                                                                                                                                                            50
                                 0%
                                      FY 2000 Actual             FY 2001 Actual              FY 2002 Actual               FY 2003 Actual              FY 2003 Target                                        0
                                                                                                                                                                                                                 FY 2000 Actual         FY 2001 Actual              FY 2002 Actual             FY 2003 Actual              FY 2003 Target




54                                                                                                                                                                                                                                                                                                                                                    55
     Office of Inspector General




           A / P # 2 : A U D I T, I N S P E C T I O N , P E R F O R M A N C E E VA L UAT I O N A N D OT H E R P R O J E C T S
                                                                                        Continued                                                                                Appendices
                                                                           Improve timeliness of reports

                                                                                  OUTPUT INDICATOR
                                                   Indicator #4: Percentage of projects completed within 183 days
      RE SU LT S




                                 2000      N/A
                    H IST ORY




                                 2001      N/A

                                 2002      50%

                                 2003      28%
                                Results
                                 Target    65%
         F Y 2 0 0 3 D ATA




                                 Rating          Significantly Below Target

                                           The result indicates that over 70 percent of our projects are taking over 6 months to complete, possibly both delaying the
                                 Impact    implementation of corrective actions and negating the relevance since conditions and staff change over relatively short
                                           timeframes of the information provided.

                                           Performance was significantly below the targeted level, due largely to a higher than expected attrition rate and the need to
                                 Other     shift resources supporting those efforts to other important and unanticipated work. Consequently, many ongoing projects
                                 Issues    lost staff or had staff available only part time, which caused delays. We expect to achieve this target in FY 2004.




                                                        Percentage of Projects Completed Within 183 Days



                         80%
                                                                                                                                                       65%
                         60%
                                                                                                50%

                         40%
                                                                                                                            28%

                         20%
                                          N/A                        N/A
                                0%
                                     FY 2000 Actual         FY 2001 Actual              FY 2002 Actual             FY 2003 Actual              FY 2003 Target




                                                                                                                                                                          FISCAL YEAR 2003 PROGRAM PERFORMANCE REPORT




56
     Office of Inspector General                                                                                                                    U.S. Department of State and the Broadcasting Board of Governors




                APPENDIX A: ACCOMPLISHMENTS                                                                                                                             M A J O R R E S U L T S A N D A C C O M P L I S H M E N T S Continued
             IN SUPPORT OF OIG STRATEGIC GOALS                                                                                                                OIG Activity or Finding                                                           Results
                                                                                                                                                                                                                  SECURITY

                                                                                                                                                           The FY 2002 review of the Department’s protection of            The Department has transferred responsibility for protecting
                                                                                                                                                           classified information at its main building found that the      SCI from the Bureau of Intelligence and Research to the
         During FY 2003, OIG reviews, findings, and recommendations resulted in positive benefits and outcomes,                                            Department has made substantial progress in protection
                                                                                                                                                           of classified information, particularly sensitive
                                                                                                                                                                                                                           Bureau of Diplomatic Security, implemented procedures for
                                                                                                                                                                                                                           controlling SCI documents and ensuring that vulnerabilities
         including improvements to Department and BBG security, programs, and operations.                                                                  compartmented information (SCI).                                identified by technical surveillance countermeasure
                                                                                                                                                                                                                           evaluations are corrected promptly, and strengthened
                                                                                                                                                                                                                           internal procedures for adjudicating security violations and
                                                                                                                                                                                                                           referring valid violations for possible disciplinary action.

                                                                                                                                                           A review of the accountability and methods used to protect      The Department clarified guidance on actions needed
                                      M A J O R R E S U LT S A N D A C C O M P L I S H M E N T S                                                           Communications Security (COMSEC) program material and           to protect Top Secret documents stored on electronic
                                                                                                                                                           information, Diplomatic Contingency Program materials           media, as well as for labeling and storing certain classified
                    OIG Activity or Finding                                                             Results                                            and information, and classified memory storage media            electronic media.
                                                                                                                                                           overseas found that, overall, the Department’s overseas
                                                                  FOREIGN POLICY                                                                           programs for controlling COMSEC material and managing
                                                                                                                                                           the Diplomatic Contingency Program’s deployed emergency
                A review of the Department’s domestic passport fraud               The Department is revising passport regulations and                     network systems are effective. However, additional guidance
                prevention programs found that smuggling of children or the        application forms to require children under 14 to appear                and clarification of existing policies would enable overseas
                substitution of the photograph of one child for another was        personally when passport applications are executed on                   officials better manage these responsibilities.
                facilitated by the regulatory exemption that allows children       their behalf.
                under 14 not to appear personally to apply for U.S. passports.                                                                             Analyses of many recent security oversight inspections          The Department is altering the design and construction of
                                                                                                                                                           revealed that a number of compound access control facilities    compound access control facilities to eliminate an OIG-
                A review of nonimmigrant visa (NIV) issuance policy and            The Department has started an extensive analysis of consular            at U.S. missions overseas, including those recently             identified vulnerability.
                procedures found that the Department had not assessed              workloads throughout the Foreign Service to assess consular             constructed, have a fundamental security vulnerability.
                and reallocated consular workloads worldwide to determine          resource needs in the post-September 11, 2001, era. With                OIG recommended procedural and physical security
                where visa services can be consolidated and strengthen the         regard to consolidation of visa services, the Department                measures to correct this vulnerability.
                usage and roles of regional consular officers.                     has accomplished significant consolidation for immigrant
                                                                                   visas at several posts. Some NIV consolidation has been                 A follow-up review of the Department’s unit security officer    The Department has developed everyday guidance, briefed
                                                                                   achieved within individual countries, but more remains to               (USO) program found that, although training and awareness       senior managers, and designed program implementation
                                                                                   be done on a regional, multi-country basis.                             have improved since the initial audit, the USO program in       tools to assist the Department USOs in implementing the
                                                                                                                                                           its current form is piecemeal, resulting in inadequate          Department’s security program. Training sessions have been
                A review of the Department’s end-use monitoring of munitions       The Department developed a phased-in plan to increase                   program implementation and poor results.                        developed for USOs and principal unit security officers
                exports found that only a small number of export license           the number of end-use checks of munitions exports and                                                                                   (PUSOs), and as of October 2003, 29 PUSOs and 713 USOs
                applications and approved licenses were targeted for end-          will specify in cables to posts when a site visit is required                                                                           had completed this training.
                use checks overseas. For the two-year period reviewed, no          as part of an end-use check. In addition, the Department
                site verifications were performed in several countries OIG         is updating its program guidance to posts and has sent out              OIG’s Office of Security and Intelligence Oversight conducted   OIG recommended corrective actions to improve the
                visited, with munitions exports of approximately $6.7 billion      a worldwide cable citing OIG’s suggestions for improving                36 security oversight inspections and four compliance           protection of personnel, national security information, and
                in Department-approved licenses. OIG recommended that              the effectiveness of this program to help detect and prevent            follow-up reviews of earlier inspections.                       the facilities of U.S. missions domestically and abroad.
                the Department’s program for end-use monitoring of high-           the illegal export of munitions.                                                                                                        Most of the recommended corrective actions were in
                risk exports increase the number of checks performed annually                                                                                                                                              response to issues such as the lack of adequate setback,
                and specify to posts when a site visit or physical inspection                                                                                                                                              failure to conduct required emergency drills, outdated
                is required as part of the end-use check.                                                                                                                                                                  emergency action plans, and inadequacies in emergency
                                                                                                                                                                                                                           plans, communications, and notification systems.
                A review of the effectiveness and implementation of the            The OCB conducted a needs assessment of talent contractors
                Office of Cuba Broadcasting’s (OCB) new program initiatives        and cancelled or reduced many of the contracts, allowing                A vulnerability assessment of the International Cooperative     The Department agreed to address all the identified
                found that although the initiatives seemed to be targeting         OCB to direct these contract dollars to other purposes,                 Administrative Support Services System (ICASS) found that       vulnerabilities. This should result in a more secure
                important new audiences, there were a number of deficiencies       and established a quality assurance plan for future                     although the specific security features associated with         information technology infrastructure.
                in their implementation.                                           procurement actions.                                                    ICASS appeared to function correctly, there were a number
                                                                                                                                                           of vulnerabilities—which were also found in other systems—
                A review of how Radio Free Asia (RFA) was meeting its              BBG took action to close the Tokyo news bureau of Radio                 that needed to be addressed on a Department-wide basis.
                mission and carrying out its administrative procedures found       Free Asia, allowing it to put limited resources to better use.
                that, even in the absence of scientifically based audience                                                                                 OIG’s Office of Information Technology conducted                Information technology security inspections at six overseas
                research, it appeared that RFA was achieving its broadcasting                                                                              information security inspections of, and issued reports on,     posts identified corrective actions to improve the security of
                mission. However, RFA needed to improve its administrative                                                                                 six overseas missions.                                          embassy information systems at the posts reviewed. Future
                policies and procedures, particularly in the areas of budgeting,                                                                                                                                           IT inspections will be conducted as part of the integrated
                procurement, and human resources.                                                                                                                                                                          inspection process, which is being piloted in FY 2004.




58                                                                                                                                                                                                                                                                                          59
     Office of Inspector General                                                                                                                   U.S. Department of State and the Broadcasting Board of Governors




                           M A J O R R E S U L T S A N D A C C O M P L I S H M E N T S Continued                                                                      M A J O R R E S U L T S A N D A C C O M P L I S H M E N T S Continued
                  OIG Activity or Finding                                                             Results                                              OIG Activity or Finding                                                             Results
               F I N A N C I A L M A N A G E M E N T A N D A D M I N I S T R AT I V E S U P P O R T S U P P O R T                                                                                        ACCOUNTABILITY

             A review of the domestic travel card program found that             The Department developed written policies and procedures                OIG conducted audits of Department and BBG programs,             These audits, including the one below, identified $5.3 million
             the Department did not have a process in place to address           for bureau travel card program coordinators and cardholders             operations, contractors, and grantees.                           in questioned costs and $500,000 in funds put to better use.
             delinquencies in the 60-day past due category before the            and has made them centrally available on an Intranet site. It
             cards are automatically suspended, had not done enough              also developed guidelines for addressing individually billed            At the request of the Department, OIG reviewed nine grants,      The limited review of the nine grants identified more than
             to prevent and detect misuse of the cards, and did not have         travel card accounts that are in the 60-day past due category           totaling $7.7 million, awarded to Youth for Understanding,       $315,000 owed to the Department by Youth for
             adequate controls in place to ensure that the administrative        and guidance on when and how to transfer cardholders’                   Inc., which subsequently ceased operations due to financial      Understanding for funds drawn in excess of actual needs
             oversight was adequate.                                             accounts from one bureau to another or to an overseas mission.          problems and later filed for Chapter 11 bankruptcy.              and disbursed for other than grant expenses, and for
                                                                                                                                                                                                                          insurance premiums paid directly by the Department.
             A survey of the Department’s progress in complying with             The Department has improved its competitive outsourcing
             the Federal Activities Inventory Reform Act of 1998 found           efforts by taking a more comprehensive, systematic approach             During FY 2003, OIG investigators opened 68 preliminary          Investigations resulted in three indictments, seven convictions,
             that the Department’s FY 2001 inventory of 3,046 full-time          in compiling the FY 2002 inventory.                                     inquiries and 34 new cases and closed 42 cases.                  and more than $7.15 million in investigative recoveries. Results
             equivalent positions available for competition was developed                                                                                                                                                 of selected individual cases are described below.
             in an inconsistent manner and was inaccurate.
                                                                                                                                                                                                                          The grantee signed a settlement agreement with the U.S.
             A study of knowledge management within the Department               The Department realigned the Bureau of Information                      An investigation resulting from an OIG audit found that a        Attorney’s office, and repaid $25,000.
             revealed the need for a designated individual with                  Resource Management (IRM) to create a Deputy Chief                      Department grantee had improperly charged grant funds
             responsibility for fostering and overseeing knowledge               Information Officer for Knowledge. IRM also integrated                  for travel costs.
             management within the Department on a day-to-day basis;             the Diplomacy Task Force to serve as principal advocate for                                                                              The contract employee pleaded guilty to five felony counts
             serving as an advocate, documenting the Department's                user needs and business practices, as an agent for improved             A joint investigation with the Department of Labor,              and was sentenced to 97 months’ imprisonment and ordered
             knowledge management approach, and linking it to the                interagency communication and collaboration, and as the                 Immigration and Naturalization Service, and Internal Revenue     to pay restitution of $4 million. The immigration attorney was
             strategic business plans and directions; and networking             Department’s center for knowledge leadership. These efforts             Service found that a Virginia immigration attorney and a         found guilty on 57 felony counts and sentenced to 121 months’
             among employee groups and coordinating knowledge                    have improved the Department’s progress on enhancing                    Department personal services contractor were involved in         imprisonment and ordered to pay $2.3 million in restitution.
             management activities throughout the Department.                    e-government.                                                           a scheme of employment-based immigrant visa fraud.
                                                                                                                                                                                                                          A Zambian national pleaded guilty in June 2002 to a felony
             Audits of the Department’s FY 2001 and FY 2002 Financial            The Department was able to meet the accelerated due date                An investigation was undertaken in May 2001, based on            charge of conspiracy to receive stolen government money, and
             Statements found that they were fairly presented, in all material   of February 1, 2003, about one month earlier than the                   information from an internal review by the Bureau of Human       was sentenced in November 2002 to 30 months’ imprisonment
             respects, in conformity with U.S. generally accepted accounting     previous year. The Department also is focusing additional               Resources that revealed almost $2 million in suspect post        and ordered to make more than $2 million in restitution.
             principles. The audits also identified four reportable conditions   attention on computer security issues; significantly improving          assignment travel charges at an embassy in Africa.
             related to internal controls, one of which is a material weakness   the accuracy, reliability, and availability of its financial                                                                             Following the test, the primary contractor terminated its
             regarding information system security; and found instances of       information; and focusing efforts to address several                    A joint investigation was undertaken with the Office of          subcontract with the company. The president of the company
             noncompliance with selected provisions of applicable laws and       significant internal control and non-compliance issues,                 Inspector General of the Department of Homeland Security,        was found guilty on 25 counts of wire fraud and two felony
             regulations involving the Department’s financial management         including system security.                                              the Federal Reserve System, and the Department of the            counts of submitting false claims to the government and
             systems; and found that financial management systems did                                                                                    Treasury Inspector General for Tax Administration, in response   was sentenced to 78 months’ imprisonment and 36 months’
             not substantially comply with the requirements of the Federal                                                                               to a complaint that the president of a company that was          supervised probation, fined $2,700, and ordered to make
             Financial Management Improvement Act of 1996.                                                                                               providing explosives ordnance detection dogs had made false      restitution of more than $700,000.
                                                                                                                                                         claims about the company’s qualifications and was providing
             A review of the Department’s implementation of the                  The Department has taken steps to improve oversight and                 dogs and handlers that could not meet the standards claimed
             Government Paperwork Elimination Act (GPEA) found that,             coordination of its e-government initiatives and to enhance             by the company. A standardized test of six of the dogs found
             although the Department had submitted its initial                   progress in meeting GPEA objectives, including establishing             that all six failed the test.
             e-government plan and subsequent updates in a timely                a centralized E-Gov Program Management Office to coordinate                                                                              The subject of the investigation pleaded guilty, and was
             manner, these submissions did not adequately fulfill Office         e-government activities and planning and to develop a                   An investigation found that the controller of a nonprofit        sentenced to 5 months’ imprisonment; 5 month’s home
             of Managment and Budget guidelines of meet the                      Department-wide approach for e-government activities.                   organization that received grant funds from the Department       detention, and 36 months’ supervised probation, fined
             administration’s e-government objectives.                           The Department also approved a comprehensive plan to                    had written checks to herself and her family from those funds.   $100, and ordered to make restitution of more than $60,000.
                                                                                 improve its IT capital planning processes to ensure that
                                                                                 e-government is central to all IT planning and decision-making.                                                                          OIG presentations to an ambassadorial seminar, a Foreign
                                                                                                                                                         OIG continued its briefings to new Ambassadors, deputy chiefs    Service officer orientation, and two Civil Service employee
             A review of the Broadcasting Board of Governors’ (BBG)              BBG has taken the first steps to begin addressing problems              of mission, and Foreign Service and Civil Service employees      orientations provided attendees with a better understanding
             restructuring and human capital planning found that it was          related to the PMA human capital initiative, including                  on the role, mission, and services of the OIG.                   of the operations of the OIG and accountability issues affecting
             facing major human capital challenges in striving to meet           implementing mandatory training courses for its acquisition                                                                              Department employees. Briefings to Ambassadors and Foreign
             the President’s Management Agenda (PMA) initiative                  and procurement workforce.                                                                                                               Service officers also addressed specific issues related to their
             concerning the strategic management of human capital.                                                                                                                                                        respective assigned missions.

             Several recent inspections found that Department has a              Requiring all missions to submit retail price surveys that
             policy of computing the post cost-of-living allowance for           list local prices, net of value added tax reimbursement,
             U.S. direct-hire employees without deducting value added            should result in significant savings.
             tax reimbursement.




60                                                                                                                                                                                                                                                                                           61
     Office of Inspector General                                                                                                                 U.S. Department of State and the Broadcasting Board of Governors




                         M A J O R R E S U L T S A N D A C C O M P L I S H M E N T S Continued                                                    APPENDIX B: FY 2003 REPORTS                                                                                 ISSUED                     IN
                 OIG Activity or Finding                                                           Results                                           SUPPORT OF OIG STRATEGIC                                                                                 GOALS
                                                  INTERNAL ENABLING GOALS

            OIG redeployed staff to streamline management and improve
            operational efficiency and effectiveness by eliminating one
                                                                              The staffing change resulted in the elimination of one
                                                                              director’s position, improved the operational effectiveness
                                                                                                                                                    During FY 2003, OIG issued the following reports in support of its Strategic and Performance Goals.
            division in the Office of Security and Intelligence Oversight     of the security inspection teams, and streamlined
            and transferring the function to another division in that         administrative support functions by consolidating them into
            office. Also, two units from other OIG offices were transferred   one office. The transfer of information technology operations                                       W O R K S U P P O R T I N G S T R AT E G I C G O A L S
            into the Office of Administration.                                resulted in a structure parallel to that of other bureaus,
                                                                              which is expected to enhance coordination with the                                                                         FOREIGN POLICY
                                                                              Department and implementation of new programs and
                                                                              requirements.                                                               Post/Bureau/Office Management Inspections and Compliance Follow-up Reviews
                                                                                                                                                          Review of Domestic Passport Operations, Phase II: Fraud Prevention Programs
            OIG developed its first hiring plan for Fiscal Years 2003-04,     The workforce plan will include a comparison of the skills                  Diversity Visa Program Memorandum Report
            and initiated work on its first workforce plan.                   and competencies of OIG’s current workforce to the forecasted               Cumulative Effects of Munitions Exports
                                                                              needs in FY 2004 and FY 2005.                                               Review of Nonimmigrant Visa Issuance Policy and Procedures
                                                                                                                                                          Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives
            OIG initiated a 100 percent review of all OIG position            As of the end of FY 2003, OIG identified four positions as                  Survey of the Merger of WorldNet Television with the Voice of America
            descriptions, to be completed in FY 2004.                         “incumbent only,” to be reclassified to lower grade levels upon             Review of Radio Free Asia Activities
                                                                              the departure of the current incumbents.
                                                                                                                                                                                                                SECURITY
            OIG implemented the OIG Timesheet System (OTS) for all            The combination of the Project Tracking System—
            OIG employees, effective October 1, 2002.                         implemented in FY 2001—and the OTS allows OIG to manage                     Security and Intelligence Oversight Inspections and Compliance Follow-up Reviews
                                                                              its resources more efficiently and effectively, and to monitor              Security Evaluation on Control of Communications Security Materials and Electronic Storage
                                                                              the timeliness and costs of its projects and support activities.            Secure Shipment of Classified Information Processing Equipment
                                                                                                                                                          Follow-up Review of the Unit Security Officer Program
                                                                                                                                                          Status Report on Protection of Classified Documents at State Department Headquarters
                                                                                                                                                          Review of the Information Security Program at the Broadcasting Board of Governors
                                                                                                                                                          Information Security Inspection Evaluations

                                                                                                                                                                  F I N A N C I A L M A N A G E M E N T A N D A D M I N I S T R AT I V E S U P P O R T

                                                                                                                                                          Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives
                                                                                                                                                          The Foreign Affairs System Integration Project Needs Redirection
                                                                                                                                                          Knowledge Management at the Department of State: Learning from Successful Principles and Practices
                                                                                                                                                          Review of Financial Assistance Management
                                                                                                                                                          Review of Department of State’s Bogotá Vehicle Procurement
                                                                                                                                                          Audit of U.S. Department of State 2002 and 2001 Principal Financial Statements
                                                                                                                                                          Domestic Travel Card Program
                                                                                                                                                          Review of Energy Conservation
                                                                                                                                                          Audits of the Department’s Financial Statements for FY 2002
                                                                                                                                                          Post Assignment Travel Memorandum Report
                                                                                                                                                          OPM Application of Agreed-Upon Procedures
                                                                                                                                                          Information Technology Vulnerability Assessment of the International Cooperative Administrative Support Services System
                                                                                                                                                          Audit of the International Cooperative Administrative Support Services’ 2001 and 2000 Principal Financial
                                                                                                                                                          Agreed-Upon Procedures Report on Federal Intragovernmental Activity and Balances
                                                                                                                                                          Agreed-Upon Procedures Report on Federal Agencies’ Centralized Trial Balance System
                                                                                                                                                          Attestation Review of Annual Accounting of Drug Control Funds for FY 2002
                                                                                                                                                          Cost of Living Allowance
                                                                                                                                                          Assessment of the Department of State’s Connection Approval Process, Independent Validation and Verification Protocol, and System
                                                                                                                                                          Certification and Accreditation Process
                                                                                                                                                          Independent Accountant's Report on Application of Agreed-Upon Procedures to a Proposal Submitted by J.A. Jones Construction
                                                                                                                                                          to U.S. Department of State in Response to U.S. Department of State Request for Solicitation No. S-LMAQM-00-C-6035 05/03
                                                                                                                                                          Information Technology Vulnerability Assessment of the HYPERION Financial Management Application
                                                                                                                                                          International Boundary and Water Commission, United States and Mexico, U.S. Section, Financial Statements, FY 2002
                                                                                                                                                          Survey of Department Compliance with the Federal Activities Inventory Reform Act of 1998
                                                                                                                                                          Audit of the International Joint Commission’s 2001 and 2000 Principal Financial Statements
                                                                                                                                                          U.S. Direct Assistance to Colombian National Police
                                                                                                                                                          Inspection of Helsinki Regional Monitoring Office
                                                                                                                                                          Review of the BBG Monitoring of Contractor Performance
                                                                                                                                                          Review of Strategic Management of Human Capital and Workforce Planning Initiatives at the Broadcasting Board of Governors
                                                                                                                                                          Management Review of Selected Benefits for Radio Free Europe/Radio Liberty Employees




62                                                                                                                                                                                                                                                                                            63
     Office of Inspector General                                                                                                         U.S. Department of State and the Broadcasting Board of Governors




                            W O R K S U P P O R T I N G S T R AT E G I C G O A L S Continued                                              APPENDIX C: FY 2003 REPORTS ISSUED IN SUPPORT
                                                         ACCOUNTABILITY                                                                      OF THE PRESIDENT’S MANAGEMENT AGENDA
            Audit of Costs Claimed by the Open Society Institute Under Selected U.S. Department of State Awards
            Review of Allegations Regarding Office of Foreign Missions Information Systems Procurements
            Review of Allegations Regarding the Office of Humanitarian Demining Programs
            Review of Allegations Regarding the Office of Humanitarian Demining Program’s Contract for Integrated Mine Action Services   During FY 2003, OIG continued to focus work on the five government-wide initiatives of the President’s Management
            Review of Selected Awards to Youth For Understanding, Inc.
            Follow-up Review of Project Harmony, Inc.
                                                                                                                                         Agenda, as well as the program-specific initiative to rightsize the U.S. government’s overseas presence. The table below
            Audits of Selected Grantees and Contractors (Continuous)                                                                     identifies activities undertaken and reports issued by OIG during the fiscal year that support these initiatives.
            Report of Audit of Costs Claimed by the International Research and Exchange Board
            Embassy Khartoum Fiscal Irregularity
            Review of Legal Services Contract
            Follow-up Review of the Institute of International Education
            OIG Investigations and Audits or Other Reviews in Support of Investigative Activities
                                                                                                                                                                         O I G W O R K A D D R E S S I N G P M A I N I T I AT I V E S
                                                                                                                                                                                  EXPANDED ELECTRONIC GOVERNMENT

                                                                                                                                                     Improved Approach Needed to Achieve Government Paperwork Elimination Act Objectives
                                                                                                                                                     The Foreign Affairs Systems Integration Project Needs Redirection

                                                                                                                                                                                  IMPROVED FINANCIAL PERFORMANCE

                                                                                                                                                     Domestic Travel Card Program
                                                                                                                                                     Financial Statement audits required under the Chief Financial Officers Act of 1990
                                                                                                                                                     Audits of Department and BBG Contractors and Grantees
                                                                                                                                                     Review of Financial Assistance Management
                                                                                                                                                     Data Reviews, Quality Control Reviews, and Contract Audit Services
                                                                                                                                                     Post Assignment Travel
                                                                                                                                                     U.S. Direct Assistance to Colombian National Police
                                                                                                                                                     Review of Energy Conservation

                                                                                                                                                               BUDGET, STRATEGIC, AND PERFORMANCE INTEGRATION

                                                                                                                                                     Financial Statement audits

                                                                                                                                                                        STRATEGIC MANAGEMENT OF HUMAN CAPITAL

                                                                                                                                                     Review of Nonimmigrant Visa Issuance Policy and Procedures
                                                                                                                                                     Review of Domestic Passport Operations Phase II: Fraud Prevention Program
                                                                                                                                                     Review of Strategic Management of Human Capital and Workforce Planning Initiatives at the Broadcasting Board of Governors

                                                                                                                                                                                             COMPETITIVE SOURCING

                                                                                                                                                     Survey of Department Compliance with the Federal Activities Inventory Reform Act of 1998

                                                                                                                                                                           RIGHTSIZING OF U.S. OVERSEAS PRESENCE

                                                                                                                                                     Reviewed as an area of emphasis during 36 post management inspections conducted in FY 2003




64                                                                                                                                                                                                                                                                               65
     Office of Inspector General




               APPENDIX   D:   LIST         OF        ABBREVIATIONS



         A/Ps                      Activities and Programs
         ACDA                      Arms Control and Disarmament Agency                                 Report Fraud, Waste, and Abuse to:
         ADM                       Office of Administration
         BBG                       Broadcasting Board of Governors                                    Office of Inspector General HOTLINE
         AUD                       Office of Audits
                                                                                                                   P.O. Box 9978
         CATS                      OIG Compliance Analysis Tracking System
         COMSEC                    communications security                                                   Arlington, Virginia 22219
         D&CP                      Diplomatic and Consular Programs                                                         202-647-3320
         EOD                       explosive ordnance detection                                                             800-409-9926
         FY                        fiscal year
         IBO                       Office of International Broadcasting Oversight
         GPEA                      Government Paperwork Elimination Act
         ICASS                     International Cooperative Administrative Support Services System
         INV                       Office of Investigations
         IRM                       Bureau of Information Resource Management
         ISP                       Office of Inspections
         IT                        Office of Information Technology
         NIV                       nonimmigrant visa
         OCB                       Office of Cuba Broadcasting
         OIG                       Office of Inspector General                                         Additional information regarding OIG’s mission, activities,
                                                                                                           and publications is available on the OIG website:
         OTS                       OIG Timesheet System
         PART                      Program Assessment Rating Tool                                                            oig.state.gov
         PTS                       Project Tracking System
         PL                        Public Law                                                           Requests or questions regarding OIG planning activities
                                                                                                           or this performance report may be addressed to:
         PMA                       President’s Management Agenda
         PUSO                      principal unit security officers                                             Office of Planning, Analysis, and Results
         Results Act               Government Performance and Results Act of 1993                               Office of Inspector General, Room 6817
         RFA                       Radio Free Asia                                                                      U.S. Department of State
                                                                                                                      Washington, DC 20520-6817
         SCI                       sensitive compartmented information
         SIO                       Office of Security and Intelligence Oversight
         USO                       unit security officers



                                                                                                             U.S. Department of State Publication Number: 11114
                                                                                                                         Office of Inspector General
                                                                                                                           Released January 2004




66
United States Department of State

        2201 C Street, N.W.
       Washington, D.C. 20520
           (202) 647-4000


   www.state.gov
